<html>
<title> - THE CONGRESSIONAL VISION FOR A 21ST CENTURY UNION STATION: NEW INTERMODAL USES AND A NEW UNION STATION LIVABLE COMMUNITY</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]



 
    THE CONGRESSIONAL VISION FOR A 21ST CENTURY UNION STATION: NEW 
       INTERMODAL USES AND A NEW UNION STATION LIVABLE COMMUNITY

=======================================================================

                                (111-52)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
    ECONOMIC DEVELOPMENT, PUBLIC BUILDINGS, AND EMERGENCY MANAGEMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                             JULY 22, 2009

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure


                        U.S. Government Printing Office

51-253 PDF                    Washington: 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2104 Mail: Stop IDCC, Washington, DC 20402-0001



             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                 JAMES L. OBERSTAR, Minnesota, Chairman

NICK J. RAHALL, II, West Virginia,   JOHN L. MICA, Florida
Vice Chair                           DON YOUNG, Alaska
PETER A. DeFAZIO, Oregon             THOMAS E. PETRI, Wisconsin
JERRY F. COSTELLO, Illinois          HOWARD COBLE, North Carolina
ELEANOR HOLMES NORTON, District of   JOHN J. DUNCAN, Jr., Tennessee
Columbia                             VERNON J. EHLERS, Michigan
JERROLD NADLER, New York             FRANK A. LoBIONDO, New Jersey
CORRINE BROWN, Florida               JERRY MORAN, Kansas
BOB FILNER, California               GARY G. MILLER, California
EDDIE BERNICE JOHNSON, Texas         HENRY E. BROWN, Jr., South 
GENE TAYLOR, Mississippi             Carolina
ELIJAH E. CUMMINGS, Maryland         TIMOTHY V. JOHNSON, Illinois
LEONARD L. BOSWELL, Iowa             TODD RUSSELL PLATTS, Pennsylvania
TIM HOLDEN, Pennsylvania             SAM GRAVES, Missouri
BRIAN BAIRD, Washington              BILL SHUSTER, Pennsylvania
RICK LARSEN, Washington              JOHN BOOZMAN, Arkansas
MICHAEL E. CAPUANO, Massachusetts    SHELLEY MOORE CAPITO, West 
TIMOTHY H. BISHOP, New York          Virginia
MICHAEL H. MICHAUD, Maine            JIM GERLACH, Pennsylvania
RUSS CARNAHAN, Missouri              MARIO DIAZ-BALART, Florida
GRACE F. NAPOLITANO, California      CHARLES W. DENT, Pennsylvania
DANIEL LIPINSKI, Illinois            CONNIE MACK, Florida
MAZIE K. HIRONO, Hawaii              LYNN A WESTMORELAND, Georgia
JASON ALTMIRE, Pennsylvania          JEAN SCHMIDT, Ohio
TIMOTHY J. WALZ, Minnesota           CANDICE S. MILLER, Michigan
HEATH SHULER, North Carolina         MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          VERN BUCHANAN, Florida
HARRY E. MITCHELL, Arizona           ROBERT E. LATTA, Ohio
CHRISTOPHER P. CARNEY, Pennsylvania  BRETT GUTHRIE, Kentucky
JOHN J. HALL, New York               ANH ``JOSEPH'' CAO, Louisiana
STEVE KAGEN, Wisconsin               AARON SCHOCK, Illinois
STEVE COHEN, Tennessee               PETE OLSON, Texas
LAURA A. RICHARDSON, California
ALBIO SIRES, New Jersey
DONNA F. EDWARDS, Maryland
SOLOMON P. ORTIZ, Texas
PHIL HARE, Illinois
JOHN A. BOCCIERI, Ohio
MARK H. SCHAUER, Michigan
BETSY MARKEY, Colorado
PARKER GRIFFITH, Alabama
MICHAEL E. McMAHON, New York
THOMAS S. P. PERRIELLO, Virginia
DINA TITUS, Nevada
HARRY TEAGUE, New Mexico
VACANCY

                                  (ii)

  
?

 Subcommittee on Economic Development, Public Buildings, and Emergency 
                               Management

           ELEANOR HOLMES NORTON, District of Columbia, Chair

BETSY MARKEY, Colorado               MARIO DIAZ-BALART, Florida
MICHAEL H. MICHAUD, Maine            TIMOTHY V. JOHNSON, Illinois
HEATH SHULER, North Carolina         SAM GRAVES, Missouri
PARKER GRIFFITH, Alabama             SHELLEY MOORE CAPITO, West 
RUSS CARNAHAN, Missouri              Virginia
TIMOTHY J. WALZ, Minnesota           MARY FALLIN, Oklahoma
MICHAEL A. ARCURI, New York          BRETT GUTHRIE, Kentucky
CHRISTOPHER P. CARNEY,               ANH ``JOSEPH'' CAO, Louisiana
Pennsylvania, Vice Chair             PETE OLSON, Texas
DONNA F. EDWARDS, Maryland
THOMAS S. P. PERRIELLO, Virginia
JAMES L. OBERSTAR, Minnesota
  (Ex Officio)

                                 (iii)

                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................    vi

                               TESTIMONY

Akridge, John ``Chip,'' Chairman, Akridge Corporation............    22
Alleman, Steven, General Superintendent, Amtrak..................    22
Ball, David, President, Union Station Redevelopment Corporation..     5
Klein, Gabe, Director, District Department of Transportation.....    22
Leach, David, President & CEO, Greyhound Lines, Inc..............     5
Lustig, Barry, Senior Vice-President of Leasing and Development, 
  Ashkenazy Acquisitions Corporations............................    22

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Carnahan, Hon. Russ, of Missouri.................................    44

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

Akridge, John ``Chip''...........................................    45
Alleman, Steven..................................................    52
Ball, David......................................................    56
Klein, Gabe......................................................    62
Leach, David.....................................................    71
Lustig, Barry....................................................    79

                       SUBMISSIONS FOR THE RECORD

Akridge, John ``Chip,'' Chairman, Akridge Corporation, responses 
  to questions from the Subcommittee.............................    49
Ball, David, President, Union Station Redevelopment Corporation, 
  responses to questions from the Subcommittee...................    59
Klein, Gabe, Director, District Department of Transportation, 
  responses to questions from the Subcommittee...................    69
Leach, David, President & CEO, Greyhound Lines, Inc., response to 
  question from the Subcommittee.................................    78
Lustig, Barry, Senior Vice-President of Leasing and Development, 
  Ashkenazy Acquisitions Corporations:...........................
      Map of Union Station.......................................    84
      Responses to questions from the Subcommitee................    99

                        ADDITIONS TO THE RECORD

Amtrak, Joe McHugh, Vice President of Government Affairs and 
  Corporate Communications:......................................
      Responses to questions from the Subcommittee...............   112
      Supplemental information...................................   115
[GRAPHIC] [TIFF OMITTED] T1253.001

[GRAPHIC] [TIFF OMITTED] T1253.002

[GRAPHIC] [TIFF OMITTED] T1253.003



 HEARING ON CONGRESSIONAL VISION FOR A 21ST CENTURY UNION STATION: NEW 
       INTERMODAL USES AND A NEW UNION STATION LIVABLE COMMUNITY

                              ----------                              


                        Wednesday, July 22, 2009

                   House of Representatives
    Committee on Transportation and Infrastructure,
Subcommittee on Economic Development, Public Buildings and 
                                      Emergency Management,
                                                    Washington, DC.
    The Subcommittee met, pursuant to call, at 2:12 p.m., in 
Room 2167, Rayburn House Office Building, the Honorable Eleanor 
Holmes Norton [Chair of the Subcommittee] presiding.
    Ms. Norton. We are pleased to welcome today's witnesses to 
our oversight hearing on Union Station, its entire complex and 
the actions taken since our last hearing to carry out the 
Congressional vision and mandate that Union Station become one 
of the Nation's most important state-of-the-art intermodal 
transportation centers for all modes of transportation, 
maximizing the available space, including the planned multi-use 
addition, a result of the congressional competition that 
awarded air rights over the rail tracks behind Union Station.
    Designed by Daniel Burnham, for whom the new development, 
Burnham Place, is to be named, Union Station first opened in 
1907 as a train facility for the Nation's capital with a grand 
design commissioned by Congress that produced its landmark 
building. However, as rail use declined in the 1950s, the 
station rapidly deteriorated, and a series of failed ideas, 
wasted Federal funds, cost overruns, major utility needs, 
mismanagement and litigation resulted.
    In 1981, Congress passed the Union Station Redevelopment 
Act, which authorized the Secretary of Transportation to create 
the Union Station Redevelopment Corporation, or USRC, a non-
profit corporation, which later spearheaded the redevelopment 
of Union Station.
    In 1988, after a $180 million renovation, Union Station, 
which had been a neglected, boarded up wasteland, hardly fit 
for trains, reopened as a fully and historically restored 
beautiful facility and shopping mall. Thus was a 20th century 
Union Station reborn, but Congress wanted much more and 
mandated that Union Station become a model all-purpose 
transportation center.
    To continue to maximize the value of the historic station, 
in 2002, Congress, through the General Services Administration, 
bid and later sold the 15 acres of air rights above the 
adjacent Union Station rail yard. As a result of that sale, a 
new development adjacent to Union Station, Burnham Station, is 
expected to bring an additional 2 million square feet of 
development, including hotel, office space and expanded 
transportation capabilities and the like.
    By statute, the ownership of Union Station, as the Union 
Station Redevelopment Act report reiterated, remained with the 
Federal Government. However, we were unable to find evidence of 
congressional oversight of Union Station since its 
redevelopment. This Subcommittee resolved to fill this 
unfortunate hiatus in much needed oversight, including hearing 
testimony and complaints from the public, at our first hearing 
exactly a year ago, July 22nd, 2008. The hearing is a 
continuation of what will be regular oversight hearings, 
sometimes more than annually.
    Even after the hearing last year, the Full Committee and 
Subcommittee has had to press Union Station management even to 
provide basic intercity bus transportation. Instead, intercity 
bus service continued to bang at the door of Union Station. 
Even a bus company seeking to sub-lease of unused spaces was 
turned away for unjustifiable reasons. On March 20th, the 
leaders of the Committee and Subcommittee, including the 
Ranking Member of the Full Committee, who is here today, Mr. 
Mica, and I wrote a letter asking for the co-location of an 
intercity bus terminal at Union Station to further enable 
passengers to seamlessly move from one mode of transportation 
to another.
    Considering the public/private investment in Union Station, 
and its intermodal center mandate, it seemed indefensible that 
the addition of mere bus transportation had not occurred long 
ago. However, the Subcommittee and Committee leadership had to 
write again to Union Station management on May 7th, 2009, 
urging expeditious handling of the relocation of Greyhound to 
Union Station. No world class intermodal facility would operate 
without intercity bus services included in its package of 
transportation services. We want to learn today whether 
aggressive and expeditious action has been taken to bring 
intercity services to Union Station.
    We are determined to speed the slow walk of Union Station 
toward true intermodalism. Today, Union Station offers Amtrak, 
the Washington Metropolitan Transit service rail and bus, the 
Virginia Rail Express, or VRE, the Maryland Area Rail Commuter, 
or MARC, a bike sharing program, and tourist-friendly 
transportation services. Union Station is already the busiest 
rail stop on the WMATA subway line, with over 30,000 daily 
riders and visitors.
    However, the facility covers 12 acres, with 2200 parking 
spaces and 125 stores, and the new Intermodal Center will 
require parking facilities for buses, new rail concourses, and 
additional homeland security improvements. The District of 
Columbia is currently completing a state-of-the-art bike 
facility and is assisting in improving the traffic circle and 
taxi access. VRE is planning to extend its service to New York 
City, while at the same time MARC is extending to 
Fredericksburg and other Virginia locations. Amtrak will 
operate many of these new routes, but major renovation at the 
facility will be required in order to do so and will be 
necessary to bring Union Station into the congressional 21st 
century vision.
    We look forward to a status report on Union Station from 
the full array of the responsible parties and thank each of 
them for today's testimony.
    I would like to ask the Ranking Member, Mr. Mica, who has 
long had an interest in Union Station, if he has any opening 
remarks. I am pleased to have him join us today.
    I ask, of course, unanimous consent that the Ranking Member 
of the Full Committee sit with us at today's hearing. So 
ordered.
    Mr. Mica. Well, thank you. Good to be here today and also 
to present some viewpoints from our side of the aisle.
    First, I have to commend you, Ms. Norton, for calling this 
hearing and for taking time to spend congressional oversight 
and attention to a very important issue.
    Now, this isn't a hearing about Union Station and it being 
a train depot just in another community; this is about probably 
one of our most significant transportation intermodal centers 
in the United States, and certainly one of the most important 
and key components to transportation across the entire 
northeast corridor that serves a huge portion of America's 
population.
    If people don't know it, they need to know that Amtrak, 
again, is more than just a train terminus; it is our major 
transportation hub, it provides connections to Amtrak 
throughout the northeast corridor of the United States. It is 
intermodal to our Metro system, which now links us both to 
Reagan National and will soon link us to Dulles Airport. We 
have connections to BWI. We have both a commercial and business 
center. We have surface transportation links that include 
commercial carriers, charter carriers, tour carriers, 
circulators throughout the communities. It is, indeed, our 
major hub for transit in our Nation's capital.
    So we are talking about a very important component of 
infrastructure not just for this community, but for the whole 
region and the Nation.
    I am very pleased, again, that the focus of the hearing is 
going to be the vision for 21st century because we have to look 
ahead. We have to make certain, as Ms. Norton said, that this 
is a world class facility and that it in fact serves and is 
intermodal to all of the transportation modes and some for the 
future. I cannot think of a better time for this Committee to 
act both in looking at the long-term plan, looking at some of 
the things that we have developed in a bipartisan basis as 
priorities.
    There is absolutely no reason in the world why people who 
take our major long distance and short distance surface 
transportation commercial carriers, whether it be Greyhound or 
some other commercial carrier, should be treated as second 
class citizens, dumped in some other part of the community, and 
then have to make their way to our major intermodal hub. So I 
think getting surface transportation and, again, accommodating 
all the other needs in that intermodal center, will be a great 
step forward. So I join in offering anything from our side of 
the aisle to move a successful completion of some of our 
previous efforts and the vision you are looking to establish 
for the future.
    Let me say, finally, we cannot act at a better time on 
behalf of taxpayers and the people of the United States. To 
fulfill the proper vision for Union State, we may need to look 
at acquiring back some of that air space that we sold or some 
of that space to make certain that we have adequate space and 
we can accommodate all modes at that intermodal center. So I am 
willing to work again with Ms. Norton and everyone to try to 
make certain that we have the blueprint and the physical 
capability of accommodating all of those modes.
    The other thing is we will never get better deals, either 
from people we might have to get some space back from or if we 
have to acquire new space. I had here today no buyer for 
Watergate at auction. Property is distressed not just in our 
Nation's capital, but across the land. So if we can acquire 
back space or we can acquire new and additional space by 
planning for the future, I think it will be a great plus for 
everyone, including the taxpayers.
    Finally, NoMa again an is important key component, and we 
have got to make it a success. It will be one of the most 
vibrant parts of this community in the future, and we are going 
to make certain that it is working with Ms. Norton and others. 
She does an incredible job representing the District, its 
interest in these type projects. And, finally, she said we are 
going to do it right, world class, and I am committed to 
whatever it takes and will join her in that effort.
    So I am pleased to be here and I know our Ranking Member, 
who isn't here, Mr. Diaz-Balart--oh, I am sorry, well, he will 
come forward and said Amen after I am finished.
    [Laughter.]
    Mr. Mica. Thank you. I yield back to Mr. Diaz-Balart or to 
the Chair.
    Mr. Diaz-Balart. He was on a roll.
    Ms. Norton. Yes, we could see that, particularly when you 
got all the way over to NoMa.
    I do want you to know that part of what we are committed to 
do is to open up the back of Union Station to H Street, the 
NoMa side of Union Station.
    I am particularly pleased that the Ranking Member has 
joined us, because he has been a very important part of the 
bipartisan push for a world class intermodal Union Station from 
the very beginning, and I appreciate having him here today and 
am pleased now to ask Ms. Edwards if she has any opening 
remarks for us today.
    Ms. Edwards. Madam Chair, I will only say to Mr. Mica, 
Amen. I remember Union Station of old as a kid. I remember and 
have, of course, used Union Station that we know today, and I 
am looking forwards to working with you, Madam Chairwoman, and 
our Committee on building the Union Station of the 21st century 
that really does envision every mode of transportation, becomes 
really an example for this Country about how we can develop 
these hubs of transportation that serve multiple different 
needs of community, whether those are commercial needs, 
recreational needs, and basic multiple modes of transportation; 
and just look forward to continuing to work with you on that.
    Union Station, when you travel to Union Station and you 
visit the other stations, particularly along the eastern 
corridor, Union Station actually really does stand out as an 
example of what we can do around transportation, and many of 
the other stations in this corridor have gone through their own 
revisioning and revamping as a result of the fine work that was 
done here; and I think that that, Madam Chairwoman, will 
actually continue into the future. So what we do here is really 
important not just to serve this city and the millions who come 
to visit here each year, but also to serve as a model for what 
will happen in these transportation hubs around the Country.
    Thank you very much.
    Ms. Norton. Thank you, Ms. Edwards. Ms. Edwards and I will 
be looking to the entire regional delegation, particularly as 
VRE and MARC expand. None of that can happen if Union Station 
remains as it is.
    With all respect, of course, to the Ranking Member of our 
Full Committee, I am pleased to welcome the real Ranking Member 
to offer opening remarks at this time, Mr. Diaz-Balart.
    Mr. Diaz-Balart. Thank you, Madam Chairwoman. I apologize 
that I was a little late. I actually really need to say Amen to 
Ms. Edwards, Amen to Mr. Mica's Amen. I think the Ranking 
Member has actually stated it very succinctly and, if that is 
all right with you, Madam Chairwoman, again, I thank you for 
your leadership. You have put together another great group of 
experts that I know have been waiting, so I would love to hear 
from them. Thank you very much.
    Ms. Norton. Thank you very much, Mr. Diaz-Balart.
    We are pleased now to hear from our first two witnesses. 
Let's begin with Mr. Ball and then go to Mr. Leach.
    Mr. Ball is the President of the Union Station 
Redevelopment Corporation, David Ball. David Leach is the 
President and CEO of Greyhound Lines, Inc.
    Mr. Ball.

TESTIMONY OF DAVID BALL, PRESIDENT, UNION STATION REDEVELOPMENT 
CORPORATION; AND DAVID LEACH, PRESIDENT & CEO, GREYHOUND LINES, 
                              INC.

    Mr. Ball. Chairman Norton, Ranking Member Diaz-Balart, and 
Members of the Subcommittee, I am pleased to be here this 
afternoon on behalf of the Union Station Redevelopment 
Corporation, also known as USRC, to provide testimony support 
of The Congressional Vision for a 21st Century Union Station: 
New Intermodal Uses and a New Union Station Livable Community. 
It is important to note that USRC is the custodian for Union 
Station.
    Since last coming before this Committee in July 2008, USRC 
and other Union Station stakeholders have met and held serious 
discussions about constructing an intercity bus terminal at 
Union Station, which Greyhound would be a participant, 
increasing the intermodal use of the station and how best to 
ensure that what we do today improves access and usability for 
the station's constituents.
    USRC and its stakeholders view this opportunity as a chance 
to take a holistic approach to intermodal improvements at Union 
Station. We are framing solutions to reduce patron congestion 
in the Amtrak passenger concourse, to bring new retail 
opportunities into the station, to improve pedestrian and 
vehicular access in and around Columbus Plaza, to install a 
perimeter security bollard system at that station, also, to 
work on an immediate solution to construct an intercity bus 
terminal in the parking garage.
    We look to gain new pedestrian access into the proposed 
intercity bus terminal via the WMATA pedestrian tunnel and the 
proposed vertical access shaft adjacent to H Street. We are 
doing this along with the installation of 10 new escalators in 
the parking garage to enhance patron egress and ingress. Our 
attention to these matters will improve the services rendered 
to our current intermodal transportation providers: WMATA 
buses, Metro subway, the tour buses, the D.C. Circulator, 
Amtrak, VRE, and MARC.
    Recent USRC successfully worked and obtained agency 
approval from the Commission of Fine Arts, the National Capital 
Planning Commission, and the D.C. State Historic Preservation 
Officer for the implementation of security upgrades at the 
station and the rehabilitation of Columbus Plaza. DDOT is 
preparing the bidding documents. As part of the Columbia Plaza 
improvements, WMATA will gain 10 free bus slips in the garage 
to enhance bus travel in the area. The D.C. Circulator 
currently runs two routes out of the garage.
    The draft Intermodal Transportation Center study being 
conducted by DDOT provided data and insight into the future 
uses and expectations of the Union Station complex. The ITC 
identified the northern portion of the garage as the most 
feasible location for an intercity bus terminal. The majority 
of stakeholders concur that the best location for an intercity 
bus terminal was in the north end of the garage.
    In February 2009, Representative Mica requested that 
Amtrak, Greyhound, USRC, and the District meet in his office to 
discuss Greyhound's tenancy at Union Station. His directions 
were clear: think outside the box; don't be limited by lease 
lines or contractual issues. His goal was to make the intercity 
bus terminal work.
    The best solution that seemed to work for the stakeholders 
was locating the intercity bus terminal in the north end of the 
bus deck and creating a vertical connection from the H Street 
bridge to the WMATA pedestrian tunnel. This plan would allow 
patrons to come directly from Metro to gain access to the 
intercity bus terminal via walking a short distance through a 
climate controlled, well lit walkway to reach their 
destination. It would improve passenger flow at the Union 
Station Metro station and reduce potential traffic flow 
problems in the Amtrak passenger areas. The intercity bus 
terminal would be designed to have a prominent presence on H 
Street.
    In May, Representative Norton, you and I met to discuss our 
progress to date. Even though we were on the right track, you 
requested that we find a way to speed up the process to 
construct this intercity bus terminal. To that end, USRC and 
Greyhound have engaged an engineering firm to investigate the 
physical limitations of the existing bus deck to determine 
where utilities can be found to support the new use.
    The results of that study are due in August. Once the cost 
for the delivery of the utilities and the structural carrying 
capacity of the deck has been identified, a cost can be 
established for building the terminal. The stakeholders will 
focus on this data and we should be able to make end-user, 
design, construction, financing, and scheduling decisions by 
late this fall. That is our goal. Most recently, USRC has 
provided the new Greyhound management with a site tour of the 
garage and we have also received their concurrence that the 
north end of the bus deck is most situated for the terminal.
    We look forward to working with Greyhound and all other 
parties to make the intercity bus terminal a reality for Union 
Station.
    At this time, I want to thank you, and I would be pleased 
to answer any questions that you may have.
    Ms. Norton. Thank you very much, Mr. Ball.
    Mr. Leach.
    Mr. Leach. Chairwoman Norton and Members of the 
Subcommittee, I appreciate the opportunity to appear before you 
today to discuss Greyhound's plans to relocate to Washington 
Union Station. Greyhound is eager to move its operations to 
Union Station and has been actively engaged in discussions 
focused on making that happen. I greatly appreciate your strong 
support for that initiative.
    When I appeared before you a year ago, I said that after 
years of off and on again efforts, forces were converging that 
made me optimistic that plans could be finalized for Greyhound 
to move to Union Station in the fairly near future.
    My optimism proved premature. Because of concerns of 
various parties, Greyhound went through a series of four 
options, as outlined in my testimony, for its relocation to 
Union Station. Finally, when various parties suggested that our 
relocation be delayed until a further expansion of the bus deck 
for the long-range Burnham Place development, we dug our heels 
in.
    Our position was that although we strongly supported the 
long-range Union Station plans, Greyhound's move to Union 
Station needed to be, and could be, completed in a much shorter 
time frame on the existing bus deck. Our surveys indicated that 
even at peak periods, buses occupied less than one-third of the 
bus deck parking spaces.
    Since the May 7th, 2009 congressional letter urging that 
Greyhound be moved to Union Station expeditiously, there have 
been a series of discussions among the major relevant parties. 
Out of those discussions, I believe a consensus has emerged on 
a plan to create an intercity bus terminal on the existing bus 
deck. Here are the key parts of the plan as I see it:
    First, I believe that all parties are in agreement that the 
location of the intercity bus terminal on the rear of the bus 
deck, toward H Street, is the preferred option. This is Option 
1 in my prepared testimony.
    Second, there needs to be a feasibility study to determine 
any weight restrictions for the terminal and issues with regard 
to utility access. Greyhound and USRC have agreed to split the 
cost of that feasibility study, which is about to start. We 
hope that it can be completed in about 30 days.
    Third, the completion of the Metro tunnel to H Street, with 
moving walkways and vertical access to the bus deck, is 
essential to the location of the bus terminal at the rear of 
the deck. This also has major benefit to residents and office 
workers in NoMa in that it provides climate controlled, 
convenient access to Union Station.
    Fourth, funding of the tunnel and vertical access is a 
critical issue. DDOT has indicated that it intends to make 
available existing Federal planning funds for the design and 
engineering work on the tunnel and vertical access. Other 
sources of funding will need to be identified for the 
construction.
    Fifth, existing easements that will be impacted by the 
tunnel and vertical access must be identified and addressed.
    Sixth, USRC and Greyhound must negotiate agreement for 
lease for the space for the terminal and buses. Both parties 
have indicated a willingness to start negotiating in the near 
future.
    Seventh, other uses of the bus deck must be addressed. DDOT 
has indicated an interest in moving all of the curbside 
operators to the bus deck so that it can be a complete 
intercity bus terminal like the Boston South Station. Greyhound 
does not object to that approach, but it must be done in a 
comprehensive manner that provides equity in both access and 
cost-sharing.
    Eighth, the bus terminal must be constructed. Greyhound has 
committed to pay for the construction of the terminal if it is 
a Greyhound facility, and has already expended considerable 
resources on design and location.
    Ninth, timeliness needs to be identified and adhered to. 
Greyhound has suggested to all parties that a realistic goal 
for completion and occupancy of the bus terminal is three years 
from now.
    Tenth, Greyhound must sell its NoMa location in order to 
free that property up for future development. Greyhound fully 
intends to do so, although not until its future at Union 
Station is secure.
    In closing, we have got a lot of work to do to make an 
intercity bus terminal at Union Station a reality. But based on 
recent developments, I have a renewed sense of optimism that it 
can be done. Chairwoman Norton, your strong support for this 
project has been essential to getting us to this point and will 
be critical to its successful completion. Thank you very much 
for that support. I would be happy to answer any questions that 
you may have.
    Ms. Norton. Thank you very much, Mr. Leach. I appreciate 
the detail in your testimony.
    First, let me start with a more general question to Mr. 
Ball.
    The Union Station Development Act, of course, indicates 
that transportation is the raison d'etre of the facility and, 
of course, particularly today, when rail, light rail, public 
transportation of all kinds is what Congress and the President 
are focused on. We want to keep to that focus.
    But as we look at what happened, finally, with Union 
Station in the 1980s, we got through almost the end of the 
century before we brought Union Station into the 20th century, 
and, as you know, even then Congress, with its mandate for a 
21st century true intermodal facility, looking at some 
facilities that were springing up already around the Country, 
envisioned a 21st century even as we were applauding finally 
getting into the 20th century. And we were, we were delighted 
with the new facility, and, of course, even that is undergoing 
a makeover.
    I would like to hear your vision. Indeed, I would like to 
know whether the Corporation has itself designed a plan that it 
would then submit to Congress for accomplishing the intermodal 
vision that Congress has on paper, but obviously set up the 
Corporation to deliver. Has the board ever charged you or you 
gone to the board and said if we are going to make this happen, 
we have got to do what any master developer would do; we would 
put on paper what the plan is to achieve this grand intermodal 
vision that Congress keeps talking about so that they know what 
resources are necessary, what time frame we envision as 
possible, etcetera? Has that ever happened?
    Mr. Ball. Ms. Norton, back in 2000--I want to say it was 
probably 2000, maybe 2000 when Tom Nelson, I think was 
president of Amtrak, he did what was considered a 10-year 
master plan for Union Station; interviewed all the 
stakeholders, public/private, neighborhood constituents, and 
took a look in terms of what was going on at the station, how 
they viewed the station.
    And a couple of things that came out was that the access to 
and from Union Station was hard to get in; handicap 
accessibility from Union Station up to Capitol Hill did not 
exist; the cobblestone pavements in Columbus Plaza were not in 
good repair. Out of that 10-year master plan we have finally 
moved through all our hurdles and got the okay from the 
Commission of Fine Arts, NCPC to redo Columbus Plaza; a new 
traffic circle, new lights, improvements. It is a whole new 
look at Union Station; bollards in front of Union Station. That 
was 10 years ago.
    To answer your question, we can always go back and do a 10-
year look in terms of where Union Station is. When we did it 
last year, we understand that ridership from Amtrak has 
increased over the period of time. There is more use of Union 
Station. When we went before the board, we increased our 
parking garage a couple years ago, we started the garage 
expansion program and put the new parking space in parking 
garage.
    During that same time period, the last three years the 
retail side of the station was sold, so we have been working 
with the developer, trying to understand his concept; working 
with the developer in terms of getting his plans to the 
Commission of Fine Arts and really trying to put the pieces 
together. At the same time, Amtrak's ridership has grown.
    So a lot of things have happened to the station. We are 
really trying to figure out what this nut is that we have. So 
between the meetings that we have with the stakeholders, I 
believe we are in a good position to sort of understand what we 
need to do just in the next couple of years just to make the 
station work for the people that are in there today. So I hope 
that answers your question.
    Ms. Norton. Well, it is certainly important what you are 
doing, because the master plan notion in the station, which is 
rapidly being changed, regardless of what you do, means that 
you are trying to keep up with current very rapidly changing 
conditions, and I appreciate the master plan notion.
    However, you will note that here we have VRE and MARC 
expanding great distances. Some of that funding, I believe, has 
already begun in planning and design. That is going to happen 
somehow. The kind of planning I am talking about envisions a 
Burnham Place. I mean, it is in keeping with Congress's grand 
vision. You can't always put in place a grand vision, but the 
point is to know where you are going.
    And the 10-year master plan is extremely important because 
Union Station is experiencing great changes just by the 
pressures being brought on you; the new pressures on Amtrak, 
the new pressure on intercity rail, the demand for biking, the 
culture transition that is finally happening in our society as 
we finally understand the limits of automobile travel. All eyes 
focused really on various kinds of rail.
    This Congress, having reauthorized Amtrak, $13 billion into 
Amtrak, which had been starved. Competition, now several years 
completed, for Burnham Place. The kind of plan I am talking 
about is not a true master plan, but master development plan. 
It is the kind of plan that, for example, we did here in 
Congress when we passed the Southeast Federal Center Act. We 
need to know here, for the first time, almost 50 acres of 
Federal land along M Street we were going to open up and create 
what amounted to a new section of Washington, D.C. Well, we 
didn't say, well, we need a developer here and a developer 
there; we said what is the grand vision. Well, out of the grand 
vision we quickly began to fill in the spots and places.
    I am asking whether or not anyone on the board or you have 
in mind, given what we already know about the plans, which take 
us a long way now forward from where we are, structurally 
forward, whether or not you believe that it is time to have a 
21st century plan for Union Station and whether you believe you 
have the capacity to produce such a plan.
    Mr. Ball. Well, if I understand your question correctly, 
yes, we believe in a growing Union Station, the intermodal use, 
and take a look at what is called just the Union Station 
complex, the area within Union Station, how that should 
actually be looked at and used. And we have done that to a 
point. We may not have ``the plan'' written down or developed 
and written down, but from the ownership that encircles Union 
Station, we are in constant talk with them in sort of 
understanding where they are, what needs to be done at the 
station. So we don't operate within a vacuum, but we look to 
the outside developers, the ones who have ideas, that can bring 
new ideas, and we try to work with them and see Union Station 
sort of like the hub, and we support their activities.
    If you want us to come back and develop what you would 
consider sort of like a master development plan so you can get 
an idea where the different pods go, that can be done; we can 
look at something like that. That is not a problem.
    Ms. Norton. The reason that I ask, Mr. Ball, is that if 
this vision that Congress talks about all the time is to come 
about, guess what? Congress is going to have to come up with 
some funds too. If Greyhound wants to move in, we would have to 
make a decision if they were going to have exclusive control 
and what that would be worth to them. There are decisions that 
would have to be made, and I tell you one thing. It is hard 
enough to get money if there is a grand plan, but it is 
impossible if Congress doesn't see something that looks 
worthwhile.
    So you have got Members of Congress talking about the grand 
plan as if you could go ahead and do it tomorrow, when there is 
not a plan. If the President, for example, were to say here is 
the ultimate stimulus package; we are going to do exactly what 
FDR did. If you go to Constitution Avenue and Independence 
Avenue today, every cornerstone has some 1930s on it, because 
he used the stimulus funds to build the whole Federal network. 
We are not in a position to even ask for those funds because we 
don't have that kind of plan.
    Let me go to Mr. Leach. Yes, I think such a plan is in 
order. I think it is very important so that we know where we 
are going, even though how long it would take to get there, 
what its component parts are, what the needs are, what the 
finances would look like, what is the undone business so that 
we don't go, step by step, to have people come to us to say, 
for example, they can't lease even unleased spaces for buses.
    Let me ask you this, Mr. Ball. Has Amtrak ever said to you 
that for any reason the management of Amtrak opposes buses in 
Union Station?
    Mr. Ball. No.
    Ms. Norton. Have they expressed any compunction about buses 
in Union Station?
    Mr. Ball. Not so much buses directly, but just the fact 
that their passenger waiting room is tight. We just need to 
make certain that if buses come, that we can provide services 
to Amtrak travelers as well as Greyhound travelers.
    Ms. Norton. Has that matter, which is perfectly legitimate, 
ever been presented to Congress for whatever help Congress 
might provide? And I am not here suggesting that it has help to 
provide, but has anyone ever had a request based on Amtrak's 
concerns? It seems to me a legitimate concern.
    Mr. Ball. I don't know the answer to that.
    Ms. Norton. Well, you are the man in charge. I would expect 
it to come from you. I will ask the Amtrak president when he 
steps forward. But, again, I am trying to look at whether or 
not anybody wants this to happen enough to make it happen and 
to make us make it happen and to make the other actors make it 
happen, because I can tell you something, we can't even get a 
bill out of Committee or Subcommittee if we don't make it 
happen.
    Mr. Ball. I understand. We will look at, as you said, and 
we will also look to the ITC study for some of the data 
collection in terms of actually taking a look at the overall 
picture.
    Ms. Norton. Well, I would appreciate that, Mr. Ball.
    Mr. Leach, is it your understanding that Amtrak had some 
opposition to Greyhound moving into Union Station?
    Mr. Leach. It is exactly as Mr. Ball had expressed. There 
was a significant concern about congestion in the head house 
with the inclusion of Greyhound's ticketing facilities in the 
head house. So that is why we looked at the back end of the bus 
deck as a separate bus facility area, so that we could get 
around the congestion issue.
    Ms. Norton. Have you reached agreement on that?
    Mr. Leach. We have.
    Ms. Norton. I think your testimony indicated that you have.
    Before I go forward, I would like to ask the Ranking Member 
if he has any questions.
    Before I go to Ms. Edwards, I note that Ms. Markey is here 
and wonder if she has any opening remarks before we continue 
with Ms. Edwards.
    Ms. Markey. No thank you, Madam Speaker. Thank you, though.
    Ms. Norton. Thank you very much, Ms. Markey.
    Ms. Edwards, have you any questions?
    Ms. Edwards. Just a couple of questions, because I am very 
interested in the planning aspect of this, and I think that it 
really is important to take a vision with all of the 
stakeholders at the table and then come up with an idea, and 
there is going to be a lot of push and pull, I think, along the 
way.
    One of my questions is how do you then envision both what 
happens, or ought to happen, at Union Station with what is 
going on in the suburbs with VRE and MARC, and are those 
considered, then, partners at the table? And there is a lot of 
activity going on at our MARC stations and we did get, in fact, 
stimulus money and other resources to expand some of our MARC 
capacities in Maryland. That is going to have a huge impact, 
actually, on Union Station, but I am trying to envision what 
the planning table looks like for the purposes of creating this 
21st century vision for Union Station. And if that doesn't 
happen now, how does it happen if you want to get resources?
    Mr. Ball. If you are directing that question to me, in 
terms of VRE and MARC, we work with Amtrak, who actually brings 
the trains into Union Station and has to deal with their 
passengers on a day-to-day basis. So the problems or 
opportunities that Amtrak has with MARC and VRE are known to 
our office through Amtrak. So Amtrak is aware. If Amtrak is 
aware, we are aware. So we work in a partnership like that.
    Ms. Edwards. But MARC is bringing--I know people out in my 
district, especially the farther reaches, and then when you get 
out to areas like Bowie, if they are getting on the MARC train, 
maybe they are coming in as commuters to then get on Metro. I 
mean, they are using Union Station as sort of that transfer 
point for them for regular commuting.
    Mr. Ball. The most critical aspect, as I understand it, is 
basically platform space and holding space for the trains on 
the platforms, and that is Amtrak's sort of like long-term 
issue in terms of how do you actually bring trains in and get 
them out, because most of the trains from MARC, they actually 
dead-head into the station, so they sit on the platforms, other 
trains come in. So it has to do with capacity, where tracks are 
located, where platforms are located, and how they travel. So 
those are, I want to say, inherently rail issues, but the end 
result is that they do deposit people in Union Station.
    So we can work with the movement of people. We try to free 
up passengers. We have done a lot of movement studies within 
Union Station itself to see how people move, how to go back. 
Some deals with WMATA, who is not here today, but just for the 
ability of commuters to exit out of Union Station at the north 
end, because there is just not enough capacity to exit the 
number of people out of the north end of Union Station when the 
commuter rails come in.
    So we do see the same problem that you see. No matter how 
many people come in from the suburbs, there is the fact that, 
when you come to Union Station, we need to be able to get the 
people out easily and quickly as they leave the station. So we 
understand that and we are working on that.
    Ms. Edwards. Well, I guess I wonder, following up on the 
Chairwoman's question and concern, that if you are not looking 
at sort of the entire footprint and saying, well, what do we 
need to do for WMATA purposes on Metro and bus, what do we need 
to do for VRE and MARC and Amtrak, and to really turn this into 
a hub for other modes of transportation, where is the place and 
who organizes how that footprint is designed?
    Mr. Ball. That data that you just asked for, a lot of that 
is found in the ITC study that is being done by DDOT. They have 
done polls, they have done surveys to understand where people 
are going and where people are moving. So that information is 
in that and they have identified some solutions in terms of 
moving people from point A to point B, east, west, north, and 
south.
    So when that document is published, it will give you a 
pretty good footprint of what is at Union Station, who is 
coming to Union Station, who uses Union Station, the access 
points of Union Station and the problems. So once that document 
comes out, that will sort of give us a viable footprint to sort 
of follow and understand all the issues that you just 
mentioned.
    Ms. Edwards. Thank you, Madam Chairwoman.
    Ms. Norton. Thank you very much, Ms. Edwards.
    Ms. Markey, do you want to listen some more before you ask 
any questions or do you have any questions at this time?
    Ms. Markey. I don't have any questions at this time. I am 
really here to learn more about this plan. Thank you.
    Ms. Norton. Thank you. We are glad to have you. This is a 
facility that Congress envisioned as a model intermodal 
transportation center for the Country, and we are trying to 
kick it to the next step.
    Now, I have spoken of Greyhound because Greyhound has been 
energetic, because the District of Columbia, frankly, would 
like Greyhound to move from where they are, if at all possible, 
to this center because Greyhound, among other inter-bus 
transportation services, had to contend with how you in fact 
deal with people who want to get on a bus and get off a bus. I 
was personally mortified to see my constituents, especially as 
bus travel became more and more necessary and economical, to 
see them waiting out in front of public buildings in order to 
get buses, as if this were some, shall we say, third class 
city, because we were not providing inter-bus transportation.
    Now, by mentioning Greyhound, I make no judgment about who 
should be in the station. I want to know whether or not, Mr. 
Ball, you have been in touch with other intercity bus 
companies. Are there others who wish to get slots at Union 
Station at this time and what is the status of those inquiries 
or any action in response to those inquiries?
    Mr. Ball. We did do a survey and talked to several of the 
bus companies that do, I want to say, curbside pickup in the 
District at this time. Some of them believe that because how 
their constituents catch the bus, they sort of have preferred 
locations for the buses. I have worked with Greyhound just in 
terms of looking for their expertise in seeing how they 
actually design a bus facility. Greyhound may not be the 
dominant person in that, they may be a small participant, but 
they have enough knowledge about how bus terminals work, 
movement of people that we need their expertise in here in 
terms of designing an intercity bus terminal in the parking 
garage.
    So, again, we want their partnership, but we do need their 
support as we go through to make intercity bus facility 
actually be able to function correctly.
    Ms. Norton. Now, is there competition going on among bus 
companies who may want access to the station, or how does one 
get slots at Union Station?
    Mr. Ball. I don't----
    Ms. Norton. What is the status of bus service coming to 
Union Station right now, with Mr. Leach or any other bus 
service? What is the status? How close are we with what bus 
companies?
    Mr. Ball. I think----
    Ms. Norton. Pursuant to what process?
    Mr. Ball. I think we are close to working with Greyhound. 
On the other bus companies, we did send out a survey, and, 
again, a lot of the bus companies are not interested in leaving 
their current location.
    Ms. Norton. Let me just say a word about that, because we 
in the District of Columbia, who are trying to clean up our 
air, are not trying to facilitate people who pick up people on 
the side and let them off on the side. And I understand why 
that--they don't have to pay, for one thing, to in fact have a 
facility, and yet they are in competition with people who do 
have a facility.
    Now, they offer lower fares, and that is one of the reasons 
why we want them there, but a city of this size can hardly 
tolerate increasing numbers of bus companies that are leaving 
people off at any curb they happen to find vacant. Then the 
city gets all kinds of complaints about traffic, which is 
already among the most congested in the Country. So I think you 
are right, but their preference is not the preference of either 
this Committee, the Congress, or the District of Columbia.
    Mr. Ball. And we will work in concert with DDOT in terms of 
how these curbside buses are picked up.
    Ms. Norton. And I am sure DDOT doesn't have any alternative 
now. That is why we are trying to see if there are alternatives 
that can be provided at Union Station so that we could curb 
curbside. Maybe we wouldn't get rid of them all, but we really 
don't need to have people in the middle of the day or the 
middle of rush hour being let off and picked up in downtown 
Washington.
    It absolutely goes against everything we are trying to do. 
We are trying to get people to get on buses, but not intercity 
buses. The kind of buses we are trying to get them on keep them 
going back and forth to the suburbs. So we don't want to set up 
something at odds with the overall transportation goals of the 
region and of the Country, and that is something we are going 
to have to work on.
    Now, I don't know the extent to which what you are doing 
with Mr. Leach or others would in fact drink up some of this 
curbside need. Do you have any idea? How many bus companies are 
out there letting people off and taking them on as if this were 
the Metro? How many are out there today?
    Mr. Ball. Well, when we did a survey, it was either 10, 12, 
or 13. They operate under different names, different postures. 
So it probably about 10, I would think.
    Ms. Norton. Mr. Leach, this has become fairly common. Of 
course, they cost less because they don't have any overhead, 
and I know you don't consider that the best competition. We, of 
course, love the fact that our people can get the cheapest 
transportation, but we are very, very firmly committed to 
climate change and to easing congestion. So I would like to 
know how what we see here compares with other large cities.
    Mr. Leach. Well, if I may, there were several questions I 
would like to comment on, Chairwoman.
    There are 15 bus operators that operate into Washington, 
D.C. that are private sector intercity bus operators. All of 
those----
    Ms. Norton. Fifteen different services, are you saying?
    Mr. Leach. Fifteen different operators. And depending on 
who owns them, as Mr. Ball said, depends on how you classify 
them. For example, Greyhound runs an intercity bus service 
under the brand of Greyhound, but we also run a curbside 
service under the brand BoltBus. That is a wholly owned 
subsidiary of ours.
    Ms. Norton. So you decided you better get in the curbside 
business or else this competition would just be a bit much.
    Mr. Leach. Actually, there are two different consumer 
groups. The Greyhound business traditionally is friends and 
family going to see other friends and family in other cities 
around the Country.
    Ms. Norton. What is the difference in cost between going, 
you know, luxury Greyhound style and going through your 
subsidiary?
    Mr. Leach. The walk-up fares are identical, or very close, 
within three or four dollars. But on the curbside, depending on 
market demand, you shift the price. So you may get a seat for a 
dollar, you may get a seat for ten dollars, depending on the 
demand on that particular schedule on that particular day. It 
is a yield managed service, which is easy to do on a city pair 
specific basis.
    But when you are dealing with a national network, where you 
are going from Washington to Los Angeles or Denver, something 
like that, the consumer is a different consumer with a 
different need, and they are accessing a national network.
    So you have two different consumer needs. You have this 
city pair specific----
    Ms. Norton. Well, now, do we have that, how these two 
different consumer needs are being met throughout the United 
States?
    Mr. Leach. In the U.S. northeast they are.
    Ms. Norton. In what?
    Mr. Leach. In the U.S. northeast. So in Washington, Philly, 
in the large metropolitan centers where you have heavy 
congestion, we have a different lifestyle requirement, where 
there is more of a predominance of use of public 
transportation. In the rural parts of the Country, a curbside 
operation like BoltBus wouldn't have the same reason for being 
as it does here; there is more of a requirement to travel 
larger distances with more members of family and for longer 
periods of time.
    Ms. Norton. Do you have curbside service at K Street, N.E.?
    Mr. Leach. We do.
    Ms. Norton. That is your only service?
    Mr. Leach. Yes.
    Ms. Norton. Drop-off and pickup service?
    Mr. Leach. Correct. And that is the BoltBus or curbside 
operation.
    Ms. Norton. That is K Street, N.E. and what?
    Mr. Leach. I am not 100 percent sure of the cross street, 
but we can certainly get that for you.
    Ms. Norton. Is that near the old Greyhound and Trailways 
bus station? Is it the Convention Center site? What is the 
location of your drop-off and pickup? Northeast doesn't sound 
right.
    Mr. Leach. I will get it for you.
    Ms. Norton. But it is one location?
    Mr. Leach. It is one, yes.
    Ms. Norton. And if it is K Street, N.W., I can only ask you 
if that is a favorite location for pickup and drop-off.
    Mr. Leach. The location is one where we felt the consumer 
need was there, so that is why we are positioned there.
    Ms. Norton. K Street, that is one of the most awkward 
streets in Washington.
    Mr. Leach. I don't disagree with you at all, Chairwoman. In 
fact, we are----
    Ms. Norton. We have to ask D.C. how they figure this out 
with you, because this must have had the sign-off by DDOT.
    Mr. Leach. Yes, there were numerous discussions. There are 
other competitors in the marketplace. We looked at where they 
were picking up and chose similar locations to where they were 
picking up.
    Ms. Norton. Well, now, are they picking up? Where are they 
picking up, also along the K Street corridor?
    Mr. Leach. Exactly where we were picking up. In fact, they 
were there first, so we went in afterwards.
    Ms. Norton. So everybody comes to K Street?
    Mr. Leach. There are several carriers that come to K 
Street. There are other carriers that don't. And I will have to 
get you those locations if you want the specifics.
    Ms. Norton. And we will ask D.C. how they came to that. So 
you think at least they converge on one terribly crowded spot 
to pick up.
    Mr. Leach. Right.
    If I may, though, I think the point I was trying to make is 
that those network passengers, or the Greyhound traditional 
passengers, need a facility to transfer. They are traveling 
through Washington, D.C. as much as they are traveling to and 
from Washington, D.C., so there is a requirement for a 
facility. A curbside operator doesn't necessarily need that 
transfer facility because people are originating or ending 
their trips at this location.
    I think it is important also to note that there are other 
cities----
    Ms. Norton. Actually, I understand that perfectly. But I 
also understand a lot about congestion, air pollution, and the 
most crowded section of the city. At some point we are going to 
have to make a decision in the city and in the Congress about 
what the tradeoffs there, because we want low-cost service. We 
understand the difference between having to make a connection 
and going on your regular Greyhound service and just needing to 
get from here to New York the cheapest way you can.
    But we just passed a climate change bill. We are just 
trying to get people to get off the streets to use buses when 
they are traveling, rather than automobiles. This does that to 
some extent, far less so than your other facility. So that is 
something that needs some policy consideration is all I am 
saying, and we need to work with the city to see what their 
concerns are.
    Mr. Leach. Agreed. And DDOT has expressed a desire to put 
all intercity bus operators into Union Station, for the record. 
They have asked us to consider that and we certainly do that in 
other cities.
    Ms. Norton. So DDOT has made a formal request that all of 
these facilities be put at Union Station.
    Mr. Leach. They have expressed a desire to consider that. I 
don't think it is a formal request or a direction, but 
certainly have asked us to consider having all of the bus 
operators at one location.
    Ms. Norton. Because, of course, they are trying to not be 
at odds with their own climate change policy and their own 
congestion policy.
    Mr. Leach. Correct.
    Ms. Norton. Ms. Edwards?
    Ms. Edwards. Just one question.
    Mr. Ball, what is the relative value of a location on site 
at Union Station to a commercial bus operator?
    Mr. Ball. The buses, I think, are 10 feet wide by 45 feet 
long. It is 779 a month.
    Ms. Edwards. I am talking about commercial value.
    Mr. Ball. In terms of----
    Ms. Edwards. If I were at an airport and the airport 
authority gave me permission to operate a ticket center or 
ticket counter at the airport, there is a value attached to 
that. What is the value of being able to operate out of Union 
Station?
    Mr. Ball. I think it is a strong intrinsic value to be at 
Union Station for all the services that are offered. If you 
have clients come and they can eat, they have a place to use 
the rest room. So the value is very beneficial to whomever uses 
Union Station.
    Ms. Edwards. So there is a commercial value. So, for 
example, if one had to compete for those spots at Union 
Station, could that be a kind of healthy competition, to be 
able to operate out of Union Station?
    Mr. Ball. I think that it could be, yes.
    Ms. Edwards. So just for Union Station and its own 
operations and maintenance, why restrict that to one operator 
over another operator, or why not put it out for bid? I am just 
asking a question. I don't really know very much about this, 
but why not put it out for competition if it actually has some 
commercial value that could be of benefit for Union Station's 
ongoing operations?
    Mr. Ball. To answer your question, we do not discriminate 
against the different users. Some of the buses, talking about 
the curbside buses, they don't want to pay for parking. They 
don't want to pay. They don't want to pay. Now, if that 
location were they were parking for free is not there, then 
they would understand the benefits of coming to Union Station, 
paying whatever fee is at Union Station, and their customers 
would also reap the same benefits.
    Ms. Edwards. Right. So if there were some public policy 
reason that the District of Columbia decided that it didn't 
want all those buses at the curbside operating, there would be 
some, at least, competition for access to Union Station if it 
were serving as a hub. So we wouldn't just be having a 
conversation about Greyhound operating at Union Station.
    Mr. Ball. Correct. And I do believe that DDOT is working on 
a policy for the curbside buses, to get them off the streets. 
Then our facility would be one of the facilities where they can 
park.
    Ms. Edwards. So as part of your thinking, though, do you 
envision that--I mean, when I hear the description from Mr. 
Leach about the possibility of Greyhound basically developing 
its own facility, etcetera, Mr. Leach, you would envision that 
you own that, right? It is yours. So my question is why not 
Union Station and simply lease it out?
    Mr. Leach. If I may answer that, we threw that option out 
as a motivator for Union Station and the folks in the station 
because we are a private sector organization with cash, and if 
cash is an issue in construction, then that is what we do. We 
own bus terminals all over the United States. We operate in 137 
intermodal facilities and we are experts at doing this. And 
there is more than one way to skin the cat, and if USRC wants 
to own the facility, then we are more than willing to rent 
space. That is one business model that works very well.
    We have other ones where it is built by the community, by 
the State, by the Federal Government, where we have a head 
lease and we sublease to other carriers. There are clear rules 
and regulations to make sure that all intercity bus operations 
are treated fairly in the Country. We are the largest carrier, 
so we have to provide leadership in that role, but we do that 
everywhere else in the Country, and I don't know why we 
couldn't do it here.
    Ms. Edwards. And I guess, going forward, I am interested to 
know what the relative cost or benefit is to the public, to 
Union Station so that there is some sense that there is 
actually a fair deal that is really struck for the public.
    Mr. Leach. And I think the answer to that question is the 
intermodal connectivity of the modes of transportation. In the 
northeastern part of the United States, again, that Washington 
to New York/Boston corridor, Greyhound itself moves upwards of 
10 million people, and we have no access other than to carry 
luggage, suitcases and such, through the snow in the winter 
from our current facility, which we own and operate, to Union 
Station; and from a national transportation strategy 
perspective, it is lunacy.
    People should be able to get from public transportation to 
private sector transportation just as easily as they do from 
public to public; and there is a whole asset sitting there that 
would facilitate that. So we are not asking for preferential 
treatment as Greyhound; we are asking as an industry access to 
an intermodal transportation facility in one of the largest 
cities in the Country.
    Ms. Edwards. Thank you very much.
    Thank you, Madam Chairwoman.
    Ms. Norton. Thank you, Ms. Edwards, because you were 
getting toward, it seems to me, the salient question here. Now, 
Greyhound owns property. It was to leave property it owns. 
Guess what? It would sell that property. Now, as I expressed 
earlier, we don't have a preference for whoever it is, but the 
first issue is if Greyhound wanted to be there and somebody 
else or other folks, first let me go back to Mr. Leach's offer 
of a useful division about two tiers.
    Working with the District of Columbia, we might decide that 
we wanted two tiers in Union Station. That is a possible policy 
decision given our huge, huge--it is impossible to 
overemphasize our concern about air pollution and climate 
issues and congestion issues here in Washington. We could make 
that policy decision if it were ever put to us. That is why we 
are having this oversight hearing today, to see what are the 
outstanding decisions. So you could have a two tier system.
    Nevertheless, you get back to competition. We don't do 
things otherwise. Now, a decision could be made, and I am the 
last one to suggest what decision it would be, but at least let 
me pose a hypothetical. If the Federal Government is facing the 
need to provide infrastructure for bus facilities and it 
decides that it cannot pony up the money, it could make a 
policy decision that a user might do so after the appropriate 
negotiations to allow that to happen.
    Or you could use some of what Mr. Leach was suggesting that 
happens all over the Country, you know, the city could be asked 
to kick in, the Federal Government could be asked to kick in. 
Both of them want this to occur. There could be public/private. 
If the provider were to do it, that wouldn't do it by itself. 
There are all kinds of infrastructure and the provider would 
want to talk with the Federal Government, who is, even as I 
speak, with a new transportation bill, looking at Union Station 
to see what funds should go to Union Station. So there are many 
different ways to proceed.
    Mr. Ball, we can't know what to do if there is not somebody 
in charge putting forward a plan that says to the Committee and 
to the Congress here are your options. We need policy direction 
on what to do. This I see, though. I see exactly what I saw on 
M Street, lost value. It was property that the Federal 
Government owned along M Street, the Southeast Federal Center, 
some of the most valuable property on the east coast sitting 
there fallow.
    The Congress has not been oblivious to lost value at Union 
Station. Air rights. So we have gone and tried to capture the 
value above the tracks, and the value right there before us is 
unused and we don't have a plan or a request for how to get 
value out of that space. That, Mr. Ball, is the issue before 
the man in charge, and last time I heard that was you. That is 
why more than a 10-year plan or a 2-year plan is necessary to 
get anything done in Washington, and certainly out of the 
Congress. That has to be settled.
    If we are going to pay for it--because I can tell you this 
much, we are not going to pay for everything. We have got to 
find creative ways to pay for things today. And if there had 
been such a plan, it would have been up to Ms. Edwards and I 
and the regional delegation to get some stimulus money to start 
that happening. That is how you move things in Washington.
    So I am concerned as to how we get there and what kind of 
guidance is going to be necessary without suggesting which is 
the preferred way, because, to be frank with you, no one has 
put before us the options that allow us to weigh them, to cost 
them out, and to see what the value is for the District of 
Columbia as well as for the United States Government. We need 
to have that.
    I take it that you have already decided, Mr. Leach, that it 
would be added value if you moved. So at least you would be in 
the running. Is that true?
    Mr. Leach. Without question.
    Ms. Norton. Have you ever had serious discussions about 
what it would take for you to become a provider, taking on some 
of what otherwise the public, District of Columbia, or the 
Government would do? Have you ever thought about that or had 
those discussions with anyone connected with the Corporation?
    Mr. Leach. We have had discussions with Mr. Ball about 
Greyhound head-leasing the facility, about Greyhound owning the 
facility, about Greyhound providing management of the bus 
section of the facility, subleasing or at least facilitating 
the management of the subleasing of the facility. We do this 
all the time, all over the Country, and we have that expertise, 
so we have offered that expertise, I have offered it, all the 
resources that Greyhound can bring to bear to assist USRC in 
the development of an intermodal facility and the planning of 
such.
    Ms. Norton. What is the status of those talks?
    Mr. Leach. Right now, we have agreed that the best place to 
put an intercity bus facility is on the back end of the bus 
deck. We are now looking at a feasibility study--half paid for 
by Greyhound, half paid for by USRC--to look at what it is 
going to take to put that facility there. And there are several 
needs, infrastructure, physical plant changes that are going to 
be required, as I laid out in my testimony, so we are at that 
stage right now.
    Ms. Norton. Who do you expect to provide them, Mr. Leach?
    Mr. Leach. Between ourselves and USRC we will provide that 
feasibility study.
    Ms. Norton. So you would be willing to share in those 
infrastructure improvements in return for locating, co-locating 
at Union Station?
    Mr. Leach. I think it is important that it has to be cost-
effective for Greyhound, so we need to keep that in mind. But 
certainly, as Greyhound's investment in bus facility in this 
city, we are there and we are certainly prepared to do that.
    Ms. Norton. That is the kind of thing that can't happen 
without a larger vision and plan before us.
    Mr. Ball, at our hearing last year, we had public 
testimony. I would like to follow up on the status of the 
complaints from the public, for example, photographers. Can an 
ordinary photographer come into Union Station and begin to 
shoot pictures unobstructed today?
    Mr. Ball. To my understanding, Chairman, yes, they can.
    Ms. Norton. So you have not had any complaints? We have 
not, so I want to know if you have had any complaints and have 
been able to straighten them out.
    Mr. Ball. We have not received any complaints in our 
office.
    Ms. Norton. We were concerned at training for guards. 
Guards seem to be at their own discretion on lots of matters. 
Photographers is only one where some stopped people, some 
didn't. Some though Amtrak was in charge, some thought they 
were on their own in trying to figure out whether or not 
somebody should take pictures. Then when we got more deeply, we 
learned that there had not been rigorous training of guards. 
What training, if any, has occurred since our last hearing?
    Mr. Ball. I can't speak specifically to that. I do know 
that they do have new management that oversees the----
    Ms. Norton. Just a moment. You are in charge. Here we go 
again. Remember, the three of you were sitting here when we had 
our last hearing, and it was hard to know that there was a 
Corporation with somebody who called the shots because we kept 
being flitted from Amtrak to Ashkenazy, or whoever happened to 
be there at the time. So I am asking, since you are the man in 
charge, my question is directed at you. Because even if you are 
not the one who would implement it, you are the director of the 
Corporation.
    Mr. Ball. So they have undergone different training 
within--if you ask me specifically what type of training, I 
can't tell you specifically. I do know----
    Ms. Norton. Who did the training? Who took responsibility 
for doing the training?
    Mr. Ball. It would have been the security forces, IPC, and 
they would have done proper training.
    Ms. Norton. Who employs them?
    Mr. Ball. They are employed by Jones Lang LaSalle, who 
actually works for Ashkenazy Corporation, or the retail 
developers of the station.
    Ms. Norton. Okay.
    I want to thank both of you for this testimony. It reveals 
that you have made some progress. We appreciate that some 
progress has been made. In my opening remarks I called it a 
slow walk. That is what I regard it as. I understand and accept 
full responsibility for what Congress must do if all of this is 
to happen. We are, indeed, the Chairman has written and we have 
looked at the transportation plan. It is going to be a very 
different transportation bill than SAFETEA-LU or the one that 
went before it, and even it isn't going to come out right away.
    But if I were sitting where you are sitting, Mr. Ball, I 
would want to try my best to get in that four-year plan; and 
you can't get in there by Norton writing something in there off 
the top of her head, because she has got to be able to back up 
anything that she asks the Congress to do. And the full 
Chairman of this Committee has encyclopedic knowledge of 
everything that happens, including knows more about Union 
Station than I will ever know. I will never get anywhere if I 
can't demonstrate to him that there is a master plan to back up 
the Congress's master vision, a non-self-implementing master 
vision at that.
    Thank you both very much for this testimony.
    I would like to call the next witnesses. Panel two, Gabe 
Klein, the District Department of Transportation; Steven 
Alleman, Amtrak General Superintendent; Barry Lustig, Senior 
Vice-President of Leasing and Development, Ashkenazy 
Acquisitions Corporation; John Akridge, Chairman of the Akridge 
Corporation. Pleased to receive testimony from all of you at 
this time.
    Before we begin with Mr. Klein, going straight across after 
that, I want to welcome D.C. Health Academic Preparatory 
Program. Where are you? Raise your hands. Normally, I would be 
meeting with 30 students in my office. They have been to my 
office. They are high school graduates attending college in the 
fall and majoring in health-related fields. All of this is 
relevant. Stay as long as you would like. Very pleased to have 
you.
    Mr. Klein. Mr. Klein is the Director, District Department 
of Transportation. Pleased to have you, Mr. Klein.

   TESTIMONY OF GABE KLEIN, DIRECTOR, DISTRICT DEPARTMENT OF 
TRANSPORTATION; STEVEN ALLEMAN, GENERAL SUPERINTENDENT, AMTRAK; 
BARRY LUSTIG, SENIOR VICE-PRESIDENT OF LEASING AND DEVELOPMENT, 
ASHKENAZY ACQUISITIONS CORPORATIONS; AND JOHN ``CHIP'' AKRIDGE, 
                 CHAIRMAN, AKRIDGE CORPORATION

    Mr. Klein. Thank you. Good afternoon, Chairwoman Norton and 
Members of the Subcommittee. I am Gabe Klein, Director of the 
District of Columbia Department of Transportation, more 
commonly known as DDOT. I thank you for the opportunity to join 
this discussion on The Congressional Vision for a 21st Century 
Union Station: New Intermodal Uses and New Union Station 
Livable Community. My remarks today will largely focus on the 
results of the draft Final Union Station Intermodal 
Transportation Center Feasibility Study and its recommendations 
for planned improvements. I did bring a hard copy for you, if 
you would like that today.
    Before going further, I would like to express the 
District's gratitude and appreciation for the leadership role 
that the Subcommittee, and particularly Chairwoman Norton, has 
taken to support the development and improvement of Union 
Station.
    DDOT has been active in seeking improvement to Union 
Station for many years. When Union Station was renovated in the 
1980s, the District of Columbia contributed $40 million towards 
the construction of the Union Station garage. In the late 
1990s, DDOT also provided Amtrak with $3 million for lead paint 
abatement and renovation of train platform canopies.
    More recently, DDOT participated with the Union Station 
Redevelopment Corporation, USRC, and several other local and 
Federal agencies in analyzing Columbus Circle and Columbus 
Plaza in front of Union Station. In 2000, a plan was developed 
to minimize conflicts between vehicles, pedestrians, and 
cyclists. The plan entailed reconfiguring Columbus Circle and 
Columbus Plaza.
    In recent years, Amtrak has sought to add a system of 
bollards to this plan. This has resulted in considerable back 
and forth between the National Capital Planning Commission, 
NCPC, and the Commission on Fine Arts, CFA. In June, both 
agencies agreed on the bollard design. DDOT is now 
incorporating their latest guidance into the scope of work so 
that a solicitation for construction bids can go out this 
September.
    A new bike station, which was envisioned as part of the 
Columbus Circle reconfiguration, has been able to proceed on 
its own and DDOT expects the bicycle station to open near the 
end of September.
    The Union Station garage occupies only half of the air 
rights above the tracks immediately east of the station. As you 
know, the Akridge Companies acquired these air rights from the 
General Services Administration. Akridge proposed creating 
additional transportation-related facilities in association 
with their development of these air rights, and these proposed 
transportation facilities gave rise to the Intermodal 
Transportation Center funds appropriated by Congress.
    As an initial step, DDOT has used some of these funds to 
undertake a feasibility study for these facilities. Over the 
past year, DDOT has been analyzing the feasibility of new 
transportation facilities as part of this new proposed 
development in and around Union Station. Our analysis examines 
these new facilities' impacts on Union Station's existing 
facilities and services and on its ability to accommodate 
future passenger, rail, public transit, and tourism growth.
    The study represents the most comprehensive analysis to 
date of the myriad transportation alternatives at Union 
Station. The overarching purpose was to investigate the 
feasibility of the development, design, and construction of new 
intermodal transportation facilities as part of the proposed 
Burnham Place commercial and residential development.
    The study area of the project encompasses an appropriately 
20 square block site bounded by M Street to the north, 3rd 
Street to the east, Massachusetts Avenue to the south, and 
North Capitol Street to the west, and includes residential, 
commercial, and Federal stakeholders such as the Capitol 
Complex and the neighborhoods of Capitol Hill, NoMa, Stanton 
Park, Sursom Corda, and Near Northeast.
    After studying the existing demand for the multiple modes 
of transport at Union Station, we identified several key needs 
paramount to the goal of making Union Station a world class 
multi-modal center. Number one, improved modal connections; 
number two, increased rail and bus capacity; and, number three, 
enhanced pedestrian circulation and weigh finding signage.
    We developed the following framework goals to guide the 
development of the improvements proposed in the Union Station 
ITC feasibility study and evaluated each recommendation on its 
ability to meet the aforementioned identified needs. The 
framework goals are: number one, maintain and enhance Union 
Station as a multi-modal transportation hub; two, promote Union 
Station as a fluid pedestrian environment that supports 
comprehensive connectivity; three, ensure enhanced safety and 
security in and around the station; and, four, respect the 
architecture, cultural, and regional significance of the 
historic station.
    For the purposes of this testimony, I would like to focus 
on three of the study's recommended improvements that are of 
particular interest to this body, and also maximizing leverage 
investments recently made by Union Station stakeholders, 
including Congress, Amtrak, USRC, as well as DDOT: number one, 
construction of an intercity bus station on the Union Station 
parking deck; two, completion of the WMATA pedestrian tunnel to 
1st Street and vertical connections to H Street; three, 
expansion of the train concourse areas, including improved 
weigh finding signage.
    Currently, DDOT is working with Greyhound, USRC, and 
Akridge to identify the optimal location for an intercity bus 
facility that will provide the necessary access and capacity 
for intercity bus operations on the existing Union Station 
parking deck. An essential element in creating an intercity bus 
terminal on the Union Station parking deck is determining the 
structural integrity of the existing parking deck to support 
passenger facilities that are associated with this intercity 
bus service. USRC has begun this analysis and the findings will 
influence decisions regarding the type of intercity facility 
that can be constructed.
    In addition, care must be taken to ensure operational 
compatibility between intercity bus services and the transit 
services, sightseeing services, and charter bus parking that 
must also share this space. Another challenge is to determine 
how Greyhound and other carriers can share an intercity bus 
terminal while paying their fair share for the terminal's 
construction, operation, and maintenance.
    DDOT envisions a future intercity bus facility providing a 
new front door to Union Station from enlivened H Street with 
vertical pedestrian access for Metrorail occurring via the 
extension of the WMATA pedestrian tunnel from the northern 
Metrorail mezzanine to 1st Street, N.E., beneath the H Street 
overpass. Given the existing pedestrian conflicts, the northern 
Metrorail access and egress points, a new entrance at 1st 
Street, NE will provide residents, employees, and visitors to 
NoMa with direct unencumbered access to Union Station.
    We are currently working with WMATA to develop conceptual 
designs for the completion of this pedestrian tunnel and 
reconfiguration of the existing 1st Street entrance to 
facilitate improved pedestrian circulation between commuter 
rail, Metrorail, and intercity rail passengers. The cost 
estimates for these pedestrian improvements are approximately 
$9 million.
    Due to the projected growth in visitors to Union Station, 
the existing waiting areas and bathrooms at Union Station must 
be expanded. Expansion of the east-west concourse to the north, 
expansion of the mezzanine level, and expansion of the north 
concourse will provide more waiting areas and facilitate 
improved passenger circulation between regional and commuter 
rail passengers. The cost estimates for the phased improvements 
to these concourse and mezzanine areas are approximately $20 
million.
    These improvements are but a small breakout of the detailed 
recommendations for improvements to Union Station provided in 
the Intermodal Transportation Feasibility Study. DDOT will work 
cooperatively with all of Union Station's stakeholders to 
review each of the recommendations and design concepts 
developed under the ITC feasibility study to ensure a sound 
implementation plan that improves Union Station.
    I also want to note that DDOT has already submitted pre-
applications to the Federal Railroad Administration for 
economic stimulus grants to assist with the waiting area 
enhancements and the reconfiguration of the existing Metrorail 
connection.
    In conclusion, DDOT is proud to be one of the partners that 
has helped make Union Station one of the premier intermodal 
transportation centers in this Country. We are grateful for 
your leadership and assistance in providing funding that makes 
continued improvements possible. With your help, we will allow 
even more people to find safe, convenient, and affordable ways 
to come to the Nation's capital and access its many 
attractions.
    Thank you for inviting me to testify and I am happy to 
answer any questions. Thank you.
    Ms. Norton. Thank you, Mr. Klein. And thank you for your 
help with that study; it is absolutely indispensable to our 
moving forward.
    I want to hear now from the General Superintendent of 
Amtrak, Steven Alleman.
    Mr. Alleman.
    Mr. Alleman. Good afternoon, Madam Chair. I am Steve 
Alleman, Amtrak's General Superintendent, responsible for all 
rail operations at the Washington Union Station. Thank you for 
the invitation to testify.
    Amtrak has its monthly board meeting today, so, because of 
this conflict, our Board Chair, Mr. Tom Carper, and our CEO, 
Mr. Joe Boardman, are unable to attend. They asked me to 
express their regrets and to thank you on their behalf for your 
longstanding record of support for this station.
    Union Station is Amtrak's second busiest station, and it 
sits at a point of convergence of three rail routes that 
connect Washington with destinations to the north, the west, 
and the south. Above the station tracks is a bus deck that 
provides travelers with connections to both intercity and local 
bus services. These connections are very important to Mr. 
Boardman's vision of an interconnected rail system with 
complimentary transportation services.
    Mr. Boardman has a lot of experience in the transit world, 
and he appreciates the need for a close modal integration and 
the best way to provide travelers with a satisfactory range of 
transportation options. This belief is anchored in the 
knowledge that the network must provide the citizens of the 
District with transportation choices that will satisfy their 
needs.
    We expect train ridership trends will increase, and we can 
expect to see corresponding growth and demand on our 
facilities. Given the extraordinary demands that the various 
users are making on this historic structure, Amtrak believes 
the appropriate course of action is to form a joint consultive 
process involving all key stakeholders. This process needs to 
recognize Union Station's unique and irreplaceable role as 
D.C.'s intermodal terminal and to address growth needs for rail 
and existing bus services.
    Once we have an idea of the engineering feasibility, a 
joint effort should undertake the necessary environmental 
studies to determine the impact and cost of major changes so 
that we can have a definite idea on what they likely would be. 
A consultive process will also allow us to bring our 
neighboring stakeholders, such as the NoMa Business Improvement 
District.
    We are currently working with D.C. DOT, USRC, as well as 
other involved entities to determine the best way forward. USRC 
is an excellent forum for these discussions, since the USRC 
board includes Amtrak, the city, and Federal City Council, all 
of whom are present today, and believe the board is an 
appropriate forum for these discussions, and are interested in 
moving forward with a plan that is adaptive and reflective of 
the region and national goals for livable communities.
    In closing, I suggest we formalize the steps that we need 
to take by identifying the funding that we need to develop 
plans, assessing the impact of those plans, determining costs, 
and finding the funding to pay for feasible projects.
    I am confident that we can work together with all 
stakeholders on this, and I believe this collaborative effort 
will yield a vision for the 21st century Union Station. That 
vision will help us to make the intermodal improvements that we 
need to truly realize a new and revitalized Union Station. 
Thank you.
    Ms. Norton. We will hear next from Barry Lustig, Senior 
Vice-President, Leasing and Development, Ashkenazy Acquisitions 
Corporation.
    Mr. Lustig.
    Mr. Lustig. Chairwoman Norton and the Members of the 
Subcommittee, I thank you for the opportunity to speak before 
you today on behalf of Union Station Investco LLC, USI, 
regarding the progress behind Union Station Investco LLC, the 
operation and management of Union Station, and its leasing and 
development plans over the past year since our last meeting a 
year ago.
    Union Station leasing and development activity. Union 
Station is not only an historic landmark, but an architectural 
gem. USI's goals are to continue to enhance the functionality 
of the station as a premier intermodal transportation hub, 
while continually adhering to the architectural, historic, 
vendor/tenant equality and tenant/landlord communication 
standards for the property. Included within this presentation 
is an Exhibit A showing pictorially what I will be discussing 
today. I will now summarize for you what you will see in the 
following pages.
    The leasing and development activity since our acquisition 
within the station concourses is as follows, which is you see 
in this sheet here, which is 910 in activities. The proposed 
redevelopment within the station concourse/train concourse 
peninsula is presently in the architectural MEP design phase. 
The redevelopment incorporated new two-story visual presence 
for the train concourse/retailer visibility. A new hallway will 
be created from the train concourse to the station concourse on 
the far east side of the building so as to alleviate traffic 
pinch points. The leasing strategy for the peninsula 
development will remain consistent with present retail focus on 
the intermodal traveler retail, food, and dining needs.
    The leasing and development activities since last year's 
hearing within the Metro concourse, or otherwise known as the 
food hall, has included nine new tenants. We also have 
redeveloped the Metro Marketplace with the introduction of a 
cart kiosk marketplace consisting of eight merchants which 
caters to the vast array of tourists on this level.
    Within the train concourse we are presently working, along 
with Amtrak, in developing an enhanced waiting gate area for 
the transit consumers. The train concourse redevelopment is 
within its first phase of design, operational feasibility, 
between USI, Amtrak, and USRC. Redevelopment involves the 
expansion and reconfiguration of the entire Amtrak waiting gate 
area to create a friendlier, relaxing, and more security 
conscious area throughout the entire Amtrak gate zone.
    As we spoke last year, we continually work on the 
development for the main hall in creating a new Center Cafe 
structure along with communicating vertical stair elements, 
bringing property guests up and down to the present theater 
area within the Metro concourse. Replacement of current 
structure will enhance traffic flow and sight lines throughout 
the main hall, east, and west halls visibility. The entire 
project will be fully integrated to better represent a 21st 
century intermodal transportation hub. Status of this 
development, approximately nine moths have been spent working 
with the involvement of the CFA.
    We are also proposing to re-merchandise the west hall of 
the property with the introduction of a new category of fast, 
casual dining establishments with the ``best in the category'' 
quality of merchandising. Pleasant new interior patio space 
within the west hall will be created for visitors to enjoy the 
historic architecture and unique ambiance. Our goal is to 
develop a unique gathering space, promoting longer stays with 
customers of Union Station. Tenants proposed patios will be 
flex in nature to allow exhibits and property events to still 
remain. All architectural MEP design work has been completed. 
We are presently seeking acceptance and approvals from all 
appropriate parties.
    Burnham Place and Columbus Plaza Developments. USI and 
architects continually work to support the ability to improve 
Union Station for the addition of Burnham Place, which will be 
developed using the air rights located over the train tracks at 
Union Station.
    Finally, USI is in agreement with the National Park 
Service, District of Columbia, and the USRC for the 
enhancements to be made to Columbus Plaza adjacent to the 
Station. As part of the overall improvement project, city Metro 
buses will have a convenient location, front and center, for 
passenger boarding and drop-off.
    Possessory Interest Tax. Still looming over Union Station 
and all of the previously stated development plans is the 
unintended and unbudgeted impact of the District of Columbia's 
Possessory Interest Tax legislation, otherwise known as PIT, 
which is the greatest single threat to the future and Union 
Station's ongoing sustained viability.
    Prior to the adoption of the PIT legislation by the D.C. 
Government, and over the short period of time since the 
Redevelopment Corporation took charge of the rehabilitation of 
Union Station, it has transformed from a dilapidated building, 
condemned as unfit for human habitation, to a major 
transportation hub, retail center, and tourist destination 
catering to the residents of the District of Columbia, 
tourists, commuters from both D.C. and across America.
    The success of Union Station as an intermodal 
transportation facility is based on a careful and strategic 
balance of, one, budgeting for the ever-growing costs of 
maintaining, securing, and operating the century old national 
landmark; preserving the crucial tenant mix at Union Station; 
and the costs to improve Union Station as an intermodal 
transportation facility.
    The District's PIT has endangered all of that process. For 
instance, the possessor interest tax under the proposed 
assessment for year 2008 to 2009 has increased by 278 percent 
above 2007. It is USI's position that the PIT is being 
wrongfully assessed against it and USI is vigorously fighting 
to save Union Station from the inevitable downward spiral that 
it would suffer as a result of the excessive PIT assessment and 
taxes that are currently sought by the District.
    USI has been negotiating with the D.C. Mayor and Council 
for the adoption of a pilot program that would specify and 
permit a reasonable amount of annual PIT for Union Station to 
pay. The D.C. Council has introduced such legislation and is 
currently pending action and funding. If passed, it would 
ensure that the future success of USI will not be sidetracked 
or endangered by such local taxation.
    Absent this significant local tax relief that has been 
vigorously championed by various D.C. Council members, 
including Mr. Evans and Mr. Wells, it is unlikely that USI will 
be able to pay the proposed PIT taxes together with all of the 
increased operating costs, security costs, tenant allowances, 
and improvements that are required to maintain and improve 
Union Station as an intermodal transportation facility which is 
state-of-the-art.
    In the unfortunate event that the pilot legislation does 
not pass or is not fully funded, then we may have to return to 
you in this Committee to seek congressional relief from the 
local District PIT in order to ensure the completion and 
success of the projects outlined in this testimony, as well as 
the overall viability and purpose of this important Federal 
building.
    Chairwoman Norton and the Members of the Subcommittee, I 
thank you again for the opportunity to speak to you today on 
behalf of Union Station Investco LLC.
    Ms. Norton. Thank you very much, Mr. Lustig.
    Mr. John Akridge of Akridge Corporation.
    Mr. Akridge. Madam Chairwoman and Members of the Committee, 
my name is Chip Akridge and I am Founder and Chairman of 
Akridge, a Washington, D.C.-based company which owns the air 
rights adjacent to the north of Union Station.
    As you know, we were the winning bidder for this 15-acre 
property in the competition conducted by the GSA in 2002. Since 
then, we, along with our financial partner, Leucadia National 
Corporation, have spent a substantial amount of time and 
resources on plans and ideas for a new mixed-use development in 
the air rights above the rail yard.
    In the course of this comprehensive planning exercise for 
our private development, which we call Burnham Place, we have 
also devoted substantial resources to the rehabilitation, the 
reconfiguration, the rescue, if you will, of the intermodal 
transportation facilities at this crown jewel in the Nation's 
inventory of grand, historic structures.
    We appreciate the opportunity to participate in this 
hearing. We believe that in the past year there has been a 
genuine momentum in this project, and that is primarily due to 
your support and focus.
    While the historic halls of Union Station are as grand as 
they come, the state of the adjoining intermodal transportation 
center is really not a very pretty one. Tourists passing from 
the historic main hall to the existing rail waiting areas must 
wonder if they have fallen down the rabbit hole when they see 
what is down there. The finishes of the concourse area give no 
witness to the architectural treasure that is Union Station. 
The area is also congested, unsafe, inefficient, and generally 
unworkable. The ITC is, to be blunt, a dismal reflection upon 
the grand facility which houses it, and it is a frustrating 
disappointment to the citizens that use it daily.
    For example, during rush hour, woe is the commuter who is 
trying to navigate through the congested Amtrak or MARC 
concourse areas to reach Metro. Or the Amtrak passengers trying 
to move through the boarding cues to the platform. There are a 
couple pictures over there that tell the story much better than 
I can in words. Throw in the tourists trying to use the food 
court, and you have a frustrating mix of users all trying to 
move in cross purposes in the same place.
    In the 1980s, a badly neglected Union Station was restored 
with a public/private investment of almost $200 million. We 
feel the time has come to likewise shore up and modernize the 
intermodal center at Union Station. The current heavy over-
utilization of the ITC shows no signs of abating. In fact, as 
you have heard here today, ridership on all modes at the 
station are growing, and they are growing fast. Add that to the 
intercity bus, high speed rail, streetcar, and other 
transportation uses that are on the boards and coming in the 
future, it is clear that the time to act is now.
    Akridge's development of the air rights presents a once in 
a lifetime opportunity to address these challenges. The 
construction of our concrete deck and the connection to the 
north end of the station provides what now is the ideal time to 
undertake the required modernization of the ITC. While 
substantial Federal dollars will be required, this is a modest 
investment when you consider that over 25 million people use 
this as a transportation center today, and the projected 
numbers will get only greater in the future, not to mention the 
importance of the station to regional and national security.
    As I mentioned, we have spent a lot of time and resources 
studying the infrastructure needs at Union Station and propose 
the following projects be undertaken to modernize the ITC. If 
the necessary Federal support is allocated, many of these 
components can be underway immediately, with the completion of 
these efforts in a five to six year window. We have coordinated 
the general concept of these projects with all the stakeholders 
and they are compatible with all the suggestions that you have 
heard here from my fellow panel members today.
    The first project is, to alleviate the severe passenger 
congestion, the current rail concourse must be upgraded and 
expanded. The concourse serves subway, commuter rail, Amtrak, 
and other station visitors and is dysfunctional, especially at 
these periods. Also, the north station entrance must be 
upgraded for better access to the station. These improvements 
would also be beneficial to the public's safety officers 
handling emergencies.
    The second project is the construction of a new north-south 
concourse which would further lessen congestion by doubling the 
space available for passenger transfers among the various modes 
at the station. This project would connect directly to the 
existing concourse and the lower tracks.
    In order to incorporate the intercity bus service which we 
have spoken about today, it will be necessary to create a new 
entrance for Metro passengers on 1st Street, N.E., below the H 
Street overpass, and construct a connecting walkway. A second 
new entrance for Metro passengers would also be beneficial on 
the H Street overpass, adjacent to the new intercity bus 
terminal.
    The fourth project is the future introduction of streetcar 
service, which also will require improvements to the H Street 
overpass. Also needed is the construction of an emergency 
connector road between Massachusetts Avenue to the south of the 
station and H Street to help avoid the difficult experience 
during the evacuation efforts of 9/11. Finally, hardening and 
other blast-proof features would improve security of 
potentially vulnerable portions of the station.
    It is our estimate at this time that the total budget for 
all these projects will be in the $150 to $200 million range. 
It could be, as I said earlier, completed over the next four to 
six years.
    Madam Chairman, you asked earlier the correct question. In 
undertaking large, complicated projects such as this one, it is 
always instructive to have a general plan. We have prepared 
such a plan and we have coordinated that with the many 
stakeholders involved. I brought with me today some images to 
share with the Committee because it is helpful to see some 
before and after pictures of what we are talking about. The 
plans that we have proposed, of course, are not final, but they 
are conceptual and they do address, I believe, all the issues 
that you have heard today. I think you will see that there is a 
sharp contrast between the unacceptable current conditions and 
the proposed modernizations.
    Madam Chairwoman, as you know, we are committed to the 
long-term success of Union Station. As a local development firm 
with 35 years of experience here, we have participated in the 
development of Washington, D.C. to a world class city, and a 
world class city needs a world class intermodal transportation 
system. This is a vision of Union Station which we know you 
share, and we again want to thank you for your relentless 
efforts to restore Union Station and its ITC as a national 
model.
    With that, Madam Chairwoman, I would be happy to answer any 
questions you or the Members may have. Thank you.
    Ms. Norton. Thank you very much, Mr. Akridge. Indeed, all 
the testimony has been very important to hear.
    Now, I don't know if all of you at the table are hearing 
what I am hearing, but what I am hearing are quite able parts 
of the whole, each of which is proceeding, it seems to me, in 
directions no one would take exception to in and of themselves. 
But what I hear are pieces that, if they come together, might 
constitute a vision and a master plan, as opposed to what I am 
more accustomed to as Chair of this Subcommittee, which is a 
master plan where each of the actors is tested by how it fits 
that plan, complete with costs, feasibility, and all that goes 
along with it.
    Am I wrong? Are you working to a master plan or are you 
doing the best you can knowing what you know about your part of 
Union Station, the part you play in Union Station? Is anybody 
working pursuant to some overall plan, master plan that might 
end up with what Mr. Akridge is talking about and testing what 
it is you want to do in the interim against whatever that plan 
should be, or how do you work, if at all, together?
    Mr. Lustig. If I could speak on behalf of USI, we have had, 
our group with Akridge's group, have had several meetings over 
the past year and a half, and the plan that we have in place, 
specifically the plan we have in place that addresses the needs 
of enriching the train concourse is in fact consistent with 
what would be the second phase, call it, when Burnham Place 
takes place. So that is a marriage, and it could only have been 
that way because of the meetings we had.
    And that really is the same, consistent with the meetings 
that we have had with Amtrak, the meetings with USRC, I believe 
there has been--at least I can speak--I believe there has been 
some very, very good, broad communication about what the 
desires were, what the needs were, and what the present 
problems of the property exist.
    I think we all share that there are extreme pinch points of 
the property today; there are security issues of the property 
today; there are lighting issues of the property today; there 
are materials that are used on the property today that are not 
state-of-the-art, that are not 21st century. We share the 
weaknesses and we have communicated amongst each other what 
each other's visions are and try to create this one master 
plan.
    Ms. Norton. That is the same way we operate in NoMa, Mr. 
Lustig; businesses on the same block communicate with one 
another and they each make sure that each other knows what they 
are doing. And I don't want us to guess that I don't hear that 
happening, nor that there is lack of communication, but there 
are people at this table who have a revenue stream and who 
don't. There are people who have value; there are people who 
have a revenue stream; there are people who have an existing 
place in Union Station; and there are buses which aren't at the 
table.
    Mr. Lustig, particularly Mr. Alleman, have you ever sat 
down with anyone to discuss the integration of buses into Union 
Station as part of the intermodal concept?
    Mr. Alleman. Yes, we have. My superintendent of station 
operations has been involved in every one of the meetings 
regarding the bus proposals, taking it from the ticket office 
actually being in the station, to the concept of going out to H 
Street bridge, and now the bus deck. So Amtrak has participated 
in all discussions.
    Mr. Akridge. Madam Chairwoman, Akridge has met with 
Greyhound numerous times as well. I think there has been more 
coordination here than might be immediately obvious.
    Ms. Norton. But who is the driver of the process? Of course 
you all, particularly those of you who have a bottom line, will 
drive your process accordingly, but, as you know, there is an 
actor I can assure you hasn't been at the table, except insofar 
as I find funds, pick up funds here and there, and that is the 
Federal Government. So I can tell you right now that that 
should be a major actor.
    But except for Members of this Committee, I am not sure 
that they consider themselves--you all want to go ahead, 
recognizing that some people hold value, some people hold 
revenue. Mr. Akridge can't move unless the transportation 
issues are settled and unless the infrastructure issues are 
done. And a master developer would begin to put together that 
value with the revenue, with what people want to make more 
money and what people have who are sitting on top of value that 
are making nothing for anybody; and then they try to get 
together with the Federal Government, who is the only entity in 
the world, or at least in this Country, who can write a check 
without having money in the bank, and proceed from thereon in.
    I am just trying to indicate how, in this Subcommittee, we 
see projects move forward far less ambitious than this, where 
we are putting together transportation and development in the 
same package. Marvelous opportunity. Too bad we didn't take 
advantage of that economy we had in the 1990s and up until 
then, and we could have gotten some of this started, gentlemen.
    Mr. Klein, you had wanted to respond to these questions.
    Mr. Klein. Yes. I just wanted to speak to what role we are 
playing at DDOT, and also my point of view coming into this 
process somewhat late in the game. I have been on the job for 
about six months, so I will give you my perspective.
    It seems that there are some financially constrained long-
range plans that obviously are not funded, so what we have been 
trying to do is collaborate as much as possible with all the 
stakeholders. We have been working on this study, which I think 
is going to be very valuable and really does look at all the 
different----
    Ms. Norton. Did you say that you had that study with you?
    Mr. Klein. I do. I have the latest draft. It is right here. 
It is basically finished. This is for you. What we have to do 
is go through the technical advisory committee review, which is 
basically all the stakeholders signing off, and then we have to 
go through a public review. So by September it will be official 
and it will be out there.
    So we have been working hard on this. And I realize I think 
we are a little behind on it, but it is about finished. Then we 
have been trying to identify low-cost interim solutions because 
of the financial constraints that we see with some of these $80 
million, $100 million projects.
    I had a great meeting recently with Jane McClelland from 
First Group, which is the parent company for Greyhound. She was 
over from the U.K. and she seemed to be of the same mind that 
there were some things that could happen over a two-, three-, 
four-year period, including the vertical integration with H 
Street on that bus deck, building a large structure.
    But I said to her, I said, you know, looking at the state 
of the economy, looking at the business model for the curbside 
buses versus Greyhound, and now you are entering the curbside 
business as well, might we not want to look at a phased 
approach, phase 1, 2, and 3, where we literally put kiosks in 
the parking lot and start moving the buses over? And then phase 
2 we look at the----
    Ms. Norton. Kiosks in which parking lot?
    Mr. Klein. I am saying in the parking deck itself.
    Ms. Norton. Oh.
    Mr. Klein. We can get the vertical integration. I think we 
can commit to that as a group. I think we can commit to some 
sort of structure. I don't know how large it needs to be, and I 
think we will have a study by the end of August that will state 
what that deck can handle. But I guess what I am suggesting is 
that DDOT can play a role in trying to facilitate more 
expedited approaches and solutions, which brings me to the 
fourth piece, which is that we have also been looking to 
identify funding for a variety of projects ranging from 
Columbus Circle Plaza, which we are $800,000 short, but we are 
going to find a way to plug that hole----
    Ms. Norton. Are you funding that out of your transportation 
funding?
    Mr. Klein. Yes. We have an earmark and then I believe 
National Parks Service was committed to $800,000, which they 
have since backed out of, so we are considering trying to use 
some stimulus money or finding other local funds, even if we 
have to, because we want to keep to a September date to issue 
that contract.
    We have also been trying to help to identify other stimulus 
monies, particularly for enhancements within the station.
    Ms. Norton. Have you met with Mr. Ball or anyone else at 
the table on this possible use of stimulus money and where 
would that be used?
    Mr. Klein. Yes. Actually, my staff has been in close 
coordination with all the different stakeholders, so they have 
been a part of this, including the DOT delegation from 
Maryland. So we have really tried to reach out to everybody, 
and we have submitted a pre-application via FRA and we will 
submit a final application the 24th of August for, it looks 
like, approximately $31 million of improvements in the form of 
stimulus grants.
    So that is our role at this point, but we are open to 
playing whatever role you and others see fit.
    Ms. Norton. Oh, it is a very important role that the 
District would bring perhaps funds in that way, but what I am 
looking for is more than coordination. Mr. Klein can't do that 
by himself; he has some revenue that we thrust upon him, but I 
get back to how the Federal Government is really not going to 
get in it until you have the kind of thinking that we have just 
seen to the point we can do this, this is what you can do, this 
is what you have, this is what you need; and I recognize that 
that may not fall to any single person at the table, but it has 
got to happen.
    I want to ask Mr. Alleman about his view of what the 
central issue has been for intercity bus travel. We have heard 
some quite horrendous things that--I can't vouch for this; it 
wasn't under oath--that Amtrak would prefer not to have the 
competition of buses there.
    What is an intermodal transportation center to? Well, it is 
associated with various infrastructure needs, and yet, you see, 
we didn't see anybody moving to make it happen, which really 
led us to believe there was active resistance to the 
congressional mandate for intermodalism. So I have got to ask 
you what you see now that we understand where it is going to 
be. What issues, if any? We understand revenue is always an 
issue. I see how people who wanted to do it could begin to put 
together a package for revenue if there was the will to do it, 
but you folks know a whole lot more about that than I do.
    So I want to know what you who are the largest user at 
Union Station believe should be done as the next steps to at 
least get bus service of some kind in there, whether or not, as 
a business model, you think that somebody who brought value 
himself, brought money is going to be necessary in order to 
accomplish the infrastructure needs that you yourself want to 
see occur, or if you see some other way for bus service to come 
to Union Station before the next millennium.
    Mr. Alleman. Well, with Amtrak, the bus service, as far as 
we are concerned, could start tomorrow using the bus deck in a 
limited style, maybe a smaller service. But that doesn't affect 
Amtrak. And we support the----
    Ms. Norton. So actually that--there have been people 
wanting to sublease. So we could get some buses in there 
tomorrow and get that value.
    Mr. Alleman. From Amtrak's view, that would be fine. There 
is no hindrance there for Amtrak. Were Amtrak----
    Ms. Norton. Even if Greyhound weren't ready to try to make 
a deal to get in there? Some of these intercity bus people who 
have been trying to get in there you are saying you would have 
no objection?
    Mr. Alleman. Amtrak would have no objection.
    Ms. Norton. And there would be value added, wouldn't there 
be, because somebody would have to compete and pay to get in 
there, and you would have to measure that against the vacancies 
that are there or, for that matter, the people who are there, 
the services that are there?
    Mr. Alleman. We have numerous intermodal stations 
throughout the Country, so we know and understand the benefit 
both from a revenue perspective with the connectivity along 
with just being able to offer diverse transportation services 
in one hub. So Amtrak supports the intermodal approach.
    Where Amtrak gets concerned is with the impact on our 
queing area. We started to take things into our own hands, 
working with Ashkenazy, working with DDOT, speaking with 
Akridge and, of course, USRC, and we are currently working to 
do an analysis on our passenger queuing area. When that was 
designed----
    Ms. Norton. Your what? I am sorry.
    Mr. Alleman. The passenger queuing area, where folks go to 
board the trains. As you may remember, before the station was 
revitalized, that is where the trains actually stopped. The 
steel gates that you walk through into our queuing area was 
actually trackage. So when the station was redeveloped in the 
1980s, it is almost as if there was an afterthought for Amtrak. 
We ended up actually outside the natural structure with a 
canopy. That worked fine when Amtrak----
    Ms. Norton. Well, how in the world did that occur? It was a 
train station first and foremost. We are trying to make it 
train plus. You weren't at the table? Amtrak was not at the 
table?
    Mr. Alleman. I can't speak to that. I have been here 32 
years, but I was not at that table.
    Ms. Norton. That is what I mean. You don't have any vision 
as to what you are doing, then you just slapped together 
something that turned out to be gorgeous, but guess what? It 
didn't accommodate Amtrak, which was the whole purpose in the 
first place.
    Mr. Alleman. And I believe that the rail trends that we are 
seeing today may not have been expected when that construction 
was done.
    Ms. Norton. That is understandable. But the fact that you 
found yourselves on the outside looking in from the beginning, 
that is unfortunate.
    Mr. Alleman. So we have worked closely and we are looking, 
I believe, in August that Ashkenazy will have a preliminary 
design on how to integrate that structure and be able to 
increase the capacity for queuing our passengers, both Amtrak, 
VRE, and MARC.
    Ms. Norton. Now, you are bearing in mind VRE and MARC 
wanting to expand rather substantially?
    Mr. Alleman. We are currently working with MARC and VRE on 
capacity analysis. Again, this facility was built over 100 
years ago and it is seeing traffic now that it hasn't seen for 
100 years.
    Ms. Norton. And that is without anything else you would 
need to do something.
    Mr. Alleman. That is correct. So that stands alone as far 
as infrastructure, adjustments, increases, and such for higher 
capacity with trains. But that is currently under discussion 
also. But right now my focus with Amtrak is to do the work in 
the passenger boarding area that now gives us a more livable 
station.
    Ms. Norton. And that appears to be satisfactory to those 
concerned?
    Mr. Alleman. It is moving along well.
    Ms. Norton. Mr. Klein, I have to ask you something about 
charters. This is something I need to work with the District. 
First of all, do any of you know whether there are charter 
buses, like day buses, that wait for people on a daily basis at 
Union Station?
    Mr. Klein. Yes, there are. Those buses are currently on the 
deck. I was over there yesterday, and as you speed through the 
morning, towards 9:00, 10:00, it starts to fill up.
    Ms. Norton. How awful. I can't believe that isn't the least 
value you could get from the use of the available space. I 
mean, correct me. If you rent them out on a day basis, as 
opposed to negotiating to get a player in there or several 
players who get into competition, which is the best way to get 
the most value from what there is there?
    Mr. Klein. No, I think that is absolutely right and I think 
that--we are working on regulations right now, so the curbside 
buses will not be able to operate unregulated.
    Ms. Norton. Mr. Klein, let me ask you about the charter 
buses. I am not talking about curbside. If anything, the 
District has been forward-looking. You understand what the 
policy is and you didn't have a lot of choices here with 
curbside. I want to ask you about the charters, but curbside, 
is it true that they all gather at K Street the way we heard, 
and is that the best place and is it better to have them in one 
place? How did you arrive at that?
    Mr. Klein. Well, okay, so there are a number of places 
throughout the city where they pick up, and it depends on the 
company, but we have tried to push them towards the old 
convention center lot area.
    Ms. Norton. Oh, the lot that is vacant there. I see.
    Mr. Klein. So they will pick up primarily----
    Ms. Norton. So they go inside the lot. Oh, all right.
    Mr. Klein. They can. A lot of them pick up actually around 
the sides because you have that sort of unused dedicated bus 
lane and you have a lot of curb space. So you will see----
    Ms. Norton. But why wouldn't we at least make them go 
inside? That is also--what are we talking, 9th Street?
    Mr. Klein. Yes, 9th Street.
    Ms. Norton. Busy street.
    Mr. Akridge. The 700 block of H Street.
    Ms. Norton. Is it too much to ask it to go inside, let off 
your passengers, as if we were a real world class city? What is 
the reason why? Do they get crowded or something? Is there a 
reason why it is preferable, perhaps, to be on the outside? I 
don't know, so I need to ask that question.
    Mr. Klein. I think that is a good question. I think they 
prefer it that way; it is sort of easy in, easy out.
    Mr. Akridge. Well, if I could interrupt, I think that the 
use of the old convention center site as a pickup spot is a new 
turn of events. The standard pickup spots are in the 700 block 
of H Street, the 800 block of I Street, and some other outlying 
areas there. That is where----
    Mr. Klein. 15th and K.
    Mr. Akridge. 15th and K. That is where their riders know to 
come and they just haven't been asked or encouraged to move to 
the old convention center site. Some have. Some have.
    Ms. Norton. Mr. Klein, I am really going to ask you to do 
that. We have accommodated them. You had to. We would like them 
off the streets altogether, as long as you have room. And I 
commend the city for finding a use of that space. Maybe--tell 
me if I am wrong--is there some payment to go on the inside, 
not to go on the curb? Is there----
    Mr. Klein. There is. There is. We have tried to work with 
the parking provider on that. We sort of hit a roadblock, but 
the real issue is that that is going to be under construction 
relatively soon. So we are going to----
    Ms. Norton. That will take care of it because it will be 
under construction and--oh, you mean the old----
    Mr. Klein. The old convention center lot.
    Ms. Norton. You really think that is going to be under 
construction soon?
    Mr. Klein. Well----
    Ms. Norton. That is good news too.
    Mr. Klein. Yes, preconstruction. But what we want to do is 
we want to start moving those folks over to Union Station once 
we pass these regulations.
    Ms. Norton. So that is the policy of the District of 
Columbia, you would like curb sides to be at Union Station? All 
right, we don't have a difference there, and it is very 
important. As important as it was to keep it going, we don't 
want to keep it going like charters. I mean the charters that 
we must have, the tourists who come in. Are they using Union 
Station as well, and is that the highest and best use for Union 
Station?
    Mr. Klein. It is not the highest and best use. I think they 
can drop off and then we can put them at RFK or there are 
various other lots that we can look at----
    Ms. Norton. Mr. Klein, let me ask you when--I believe it 
was under Mayor Williams--a plan was drawn for the life of us--
Did you find it? We searched and searched. Staff tells me that 
they found this plan for RFK. If so, I would like Mr. Klein to 
perhaps come in and see what can be done, because there we 
have, of course, unused space as well, and we recognize--I 
endorse the city's policy of making sure we keep these tour 
buses coming, but over and over again--we went through this 
horrific process when the Visitor's Center opened, and it came 
up then. That is when we began looking for this old plan.
    So I would appreciate your coming in perhaps next week to 
talk about the RFK plan. We apparently have been able to find 
part of it. We would like to clear those decks, at least, if it 
is feasible to do so.
    Mr. Akridge, don't all of these infrastructure matters have 
to be taken care of before Burnham Place even rolls off our 
lips as a possibility?
    Mr. Akridge. Well, I wouldn't say all of them, Madam 
Chairman, but it would be preferable for many of them to be 
accomplished before we start construction, especially on the 
north end of the existing station, where the two projects----
    Ms. Norton. As you envision it, Burnham Place, what would 
be its relationship to the greater Union Station complex?
    Mr. Akridge. It will be similar to what Gallery Place is to 
the Verizon Center, with the Verizon Center being the existing 
Union Station and, of course, we built Gallery Place next door 
and they are an integrated structure working together. So we 
have finished over the last year our conceptual plan of what 
the Burnham Place development will look like.
    We have about 2.5 million square feet of space with retail, 
office, hotel, and parking. It will integrate with the north 
end of the station and the connections there are not optimal 
right there. If they are not good for the station, they won't 
be good for our project. And it is where that intersection 
occurs where the majority of economies are to be gained by 
doing the construction there in conjunction with our 
construction of our platform.
    But some of the other areas that we were talking about 
improving that have been mentioned here, part of project number 
one, which I have described, about relieving some of the 
passenger congestion and getting on the trains, Amtrak's number 
one goal, can be done in part before we start construction and 
independent of our construction. Part of it is integrated with 
our construction.
    So the projects fit together. Some things need to be done 
together, but some can be done in advance, which is one of the 
reasons why I suggested that now is the time to be moving on 
some of these projects in this appropriations bill that some of 
these projects can be begun now. They will stretch out over 
four or five years. They fit perfectly, the funding frequency 
of this piece of legislation, and I think we have a lot of the 
bones of what you are looking for here.
    They may not be pulled together just the way you would like 
to see them tied in a nice, neat little package, but the folks 
at this table and our staffs have thousands of hours. We spent 
seven figures on planning for the public portion of this 
project, as have these gentlemen as well.
    So I think a lot of the bones are laying around. I think we 
just need to work with you as to how we can best put them 
together so that they are comprehensible, because I think we 
are ready to go do the fight with the Congress and with the 
Committee to get this funding passed.
    Ms. Norton. Normally, I speak to you, Mr. Akridge, as a 
developer in the city with considerable experience and success. 
Normally, you're sitting at the table with maybe the District 
of Columbia, and the District of Columbia has--you bring 
certain value to the table. The District of Columbia brings 
other kinds of value and together, working with the District of 
Columbia, with only the developer and usually the city, perhaps 
the Federal Government could have something to do with it, but 
basically these, I won't call them deals, are put together 
with, you know, a couple of actors.
    Now, I see more than a couple of actors. I see the District 
of Columbia already is talking about stimulus funds and the 
rest of it. You all are aware of that, apparently. I see Mr. 
Lustig, he is doing a makeover as we speak on the mall, trying 
to upgrade the mall, get it ready, I guess, for Burnham Place. 
I see Amtrak both, Mr. Alleman, Mr. Lustig, of course, has at 
least the revenue stream. So does the District of Columbia. You 
haven't been called yet for that part of it. That doesn't mean 
you don't have value.
    What I am trying to understand is that with actors, all of 
whom need some parts of this to be done by others, why the 
typical bringing together of the available parties, some of 
whom have value, some of whom don't have as obvious a value, 
why that has not taken place and whether that can take place 
even now.
    Mr. Akridge. Well, I think in general the answer to that 
question is the interests here are very disparate and cover 
different areas of the project.
    Ms. Norton. Well, are they? And that is what this Committee 
wants to put before you, because I can tell you this, Mr. 
Akridge, the Congress will never see it that way. The Congress 
will see this as interests who depend one upon another. And if 
they can't figure out that co-dependence, the Congress will not 
get into it. It's as simple as that. I can guarantee you that.
    They want to know what value everybody at the table is 
bringing to the table, and with Congress locked in all kinds of 
call upon what funds are available to it, that's the only way 
to get anything out of Congress. That's why when I looked at 
more than the usual number of actors, I am looking to see 
whether anyone is looking for the co-dependence that ultimately 
is going to be there. And I recognize it is a little premature, 
Mr. Akridge, a little more premature for you than for others.
    Mr. Akridge. Well, I don't think it is premature and I 
don't think that we are not cognizant of the fact that there is 
co-dependence on all of us. I think the amount of cooperation 
that has been exhibited amongst this group over the last at 
least 18 months is exemplary.
    Ms. Norton. Resulting in what?
    Mr. Akridge. In a plan which is pretty close to being----
    Ms. Norton. What plan is that? Has it been submitted?
    Mr. Akridge. No, it has not been submitted. Well, we have a 
plan that we would be happy to submit to you that we prepared, 
that we have circulated with all these people, that they have 
looked at.
    Ms. Norton. And that plan is for what?
    Mr. Akridge. It is for--well, we have two plans. We have 
one for the public portion of the project, which all these 
people have seen and commented on numerous times; and we have 
one for the private portion of the project, which we have just 
finalized and we are getting ready to submit to the District 
and zoning process.
    So as I said, I think we are further along than we have 
made it clear to you. We don't have anything ready to present 
to you today, but hearing what it is that you are looking for, 
I think we can put our collective heads together and in pretty 
short order come back to you.
    Ms. Norton. Well, I agree. I see the makings of a plan.
    Mr. Akridge. It is there, and it hasn't been without 
discussions and not without give and take, understanding what 
the needs certain people have, the restrictions others have. 
And I think so far, it has been a pretty cooperative process.
    I would ask my fellow panel members to comment on that.
    Mr. Lustig. And if I could comment further, Madam 
Chairwoman, it is truly that plan that Akridge had showed us 
more than 18 months ago, and supplementary plans after that, 
that really spurred our idea, and I am sure it spurred Amtrak's 
as well, to go forward with this development and this plan on 
the train concourse as it relates to the queuing line with 
Amtrak and expanding and addressing a lot of those things that 
were in Akridge's plans, so when Akridge does do their 
development, our development will be seamless with theirs.
    Ms. Norton. I am not sure we have seen the plan. I am sure 
we will. But Mr. Klein said something that was important. Any 
project this monumental is necessarily incremental. The reason 
that a plan is important to see is that following that plan, 
you know in what order what should proceed and who is prepared 
to fund what. And that is the kind of planning we are 
accustomed to, at least when we are dealing with this magnitude 
of change.
    And I am very interested to know, for example, what should 
be the first step, given what you know now, and who would it 
involve?
    Mr. Lustig. Well, if I could speak. Our first step, like I 
described in my testimony, is going forward, to go forward with 
I would say probably the most major step of the four call it 
``redevelopments'' of the property, the most major step is, 
again, working with Amtrak, working with over 50,000 square 
feet of the property and reinvigorating and revitalizing, 
opening areas, opening ceilings, redoing all of the MEP 
structure within that area, to create a truly world-class 
experience for anybody coming.
    Ms. Norton. How would you fund that, Mr. Lustig?
    Mr. Lustig. How would we fund that?
    Ms. Norton. Yes.
    Mr. Lustig. We are looking for the government to assist us 
in that.
    Ms. Norton. Yes, that is what I mean. And the government is 
looking for a plan where the actors at the table----
    Mr. Lustig. I agree with you and I really do believe that 
when you call for a plan, I mean, the depth of what I have seen 
with Akridge and what we will have finished over the next, 
let's say, 60 days, the incorporation of those two plans would 
be very well on our way to show what, as it relates to the core 
structure. Of course, DDOT will have to come in and understand 
how it relates to the bus concourse, which----
    Ms. Norton. Will the plan have a financial component to it?
    Mr. Lustig. Absolutely.
    Ms. Norton. Indicating the, I am taking Mr. Klein's idea of 
incremental steps so that one could, for example, begin on the 
plan this or next year.
    Mr. Lustig. Yes, that is our goal.
    Ms. Norton. What do you all think? This is going to happen 
over 20, 25 years, you know. So first we have to have a plan 
then somebody has got to start doing something. And Congress 
tends to get interested when it sees something happening. It 
goes completely asleep and lets sleeping dogs lie if nothing 
happens. I just put it out there.
    Let me ask Mr. Klein about this so-called pilot legislation 
that apparently members of the Council are championing. I think 
Mr. Lustig--was it Mr. Lustig who raised that? I know that I 
dealt with the District on a pilot.
    Mr. Lustig. A pilot program in relationship to the taxes?
    Ms. Norton. Yes. I want to ask Mr. Klein the status of----
    Mr. Lustig. Oh, I am sorry.
    Mr. Klein?
    Mr. Klein. I have to be honest. I am not familiar with 
that. It sounds like----
    Ms. Norton. Do you know the status--that really isn't in 
DDOT's bailiwick, but I thought there might be--members of the 
Council, you suggest that some kind of pilot legislation, which 
of course the District has done before, to pay for--to help pay 
for infrastructure projects would be necessary in order for you 
to move forward.
    Now, what is the status of that, Mr. Lustig?
    Mr. Lustig. The pilot program that I was referring to was a 
pilot program that we are trying to have consideration is in 
lieu of the possessory interest tax for the property, having 
nothing to do with DDOT.
    Ms. Norton. I know. So what is the status of that?
    Mr. Lustig. We are going through the process.
    Ms. Norton. So it is proceeding and the District is 
considering it?
    Mr. Lustig. Yes, it is in front of the District right now.
    Ms. Norton. Mr. Klein, it is page two, I think, of your 
testimony you mention you support garage expansion tied to--and 
I didn't understand quite what--removal of sedan parking from 
the deck referred to. What kind of sedans park up there?
    Mr. Klein. So, okay, so right. That was speaking about the 
old garage before the expansion. And I guess there are rental 
cars on the deck at this point.
    Ms. Norton. They are rental cars? Okay, that's a part of 
the intermodal transportation, so I am not----
    Mr. Klein. Right. Right. There were rental cars on the 
deck. Rick just clarified for me. They have been moved off of 
the deck at this point, so I am not sure if that is what you 
were----
    Ms. Norton. Yes, whatever was the sedans you spoke about. I 
didn't understand what that meant.
    Mr. Klein. Okay.
    Ms. Norton. Are you satisfied with the corporation's 
community outreach? We don't like to hear after the fact about 
community outreach on something as important as this expansion 
is to the city.
    Mr. Klein. Yes. I mean I think this is a joint effort, you 
know. I mean, right now our next steps, as I have laid out some 
of them for you, are working on the stimulus grants, getting 
the feasibility study out to the public, getting the regs 
finished for the curbside buses so they can start to move to 
Union Station, if everybody agrees. We can move the other buses 
to RFK.
    And we want to see movement and we want to see it this 
year. We also would hope to start construction on Columbus 
Circle by the end of the year as well.
    Ms. Norton. We very much want to meet with you. The Capitol 
Hill community doesn't want those buses coming down the street. 
We have thought of ways to get them over. We think you have 
been put in the worst position because some of them remain 
outside of the Smithsonian because we don't want to lose them, 
and yet we have not used this plan. This is very important that 
we proceed on that.
    I have to ask you, Mr. Lustig. You started this virtual 
entire makeover, at least downstairs in Union Station before 
the economy fell flat on its face. It is never coming back like 
it was. This is a structural make-money economy. It is going to 
be far more stable. It is going to be harder to get money even 
for the best of them and the largest developers and businesses.
    So I wanted to know whether the economy has affected your 
plans, how it has affected, and surely it has affected them. 
Are you able to get the requisite financing in this economy to 
continue at what pace for the makeover that was underway?
    Mr. Lustig. All of the areas that, outside of what we are 
discussing with Amtrak, is going to be self-funded through our 
organization. As it relates to----
    Ms. Norton. What does that mean, please?
    Mr. Lustig. That we are not looking to the government.
    Ms. Norton. You are not going to borrow in order to make 
these?
    Mr. Lustig. Correct. Correct.
    Ms. Norton. Did you make that decision before the economy--
--
    Mr. Lustig. Well, I was just going to get into that. I 
mean, what the economy has done is fortunate for the fact that 
there are 25 million, arguably some people say between 28 
million and 30 million people that come through the property 
every year. For the most part, the retail expansion across the 
United States, as we all know, has pretty much to a screeching 
halt, as far as retail expansion.
    We have been fortunate because of the dynamics of the 
asset, because of the dynamics of Union Station and the amount 
of people coming through to still attract retailers to the 
asset. What has become more problematic today that we didn't 
have when we came onto the property two years ago was that it 
costs us more to bring the tenant to the property.
    The fact that they do not have open-to-buys, we have to 
spend more money, give more allowance, have more consideration 
in a rent role than we would have considered two years ago. But 
we still have an active pace with transactional activity at the 
property, if that is what you are asking.
    Ms. Norton. Well, and so that is a function of the economy, 
how you have to market.
    Mr. Lustig. Correct.
    Ms. Norton. Are you experiencing the same thing, Mr. 
Akridge?
    Mr. Akridge. On a slightly different scale, yes, we are.
    Ms. Norton. And that is understandable. I have one more 
question.
    Mr. Akridge. Could I add to that, though, that the current 
financial situation is not affecting our----
    Ms. Norton. Could you say that again, please?
    Mr. Akridge. The current general financial situation is not 
affecting our interest or our time frame on this project. We 
have a number of approval processes we need to go through with 
the Zoning Commission, with the Commission on Fine Arts, with 
the Architect of the Capitol, with Historic Preservation. We 
have a number of years of approval processes that we still need 
to go through.
    Ms. Norton. Absolutely.
    Mr. Akridge. That is why it is so important to us that we 
get these infrastructure projects in the station begun and 
underway so that when they are finishing, we can start and link 
up with them.
    Ms. Norton. I couldn't agree more. And I hope everybody has 
heard what I said.
    Mr. Akridge. We heard you.
    Ms. Norton. If you all don't get together and make a deal, 
don't even come here.
    Mr. Akridge. When we come back, we will have a plan. Okay?
    Ms. Norton. Okay.
    This is a final question for Mr. Alleman. I am pleased to 
hear about your partnership with the National Association of 
Minority and Women Owned Law Firms in connection with the fact 
that you use outside law firms and you set yourself something 
of a goal of 5 percent of whatever you spend for outside 
counsel on women-and minority-owned law firms. Have you reached 
that goal yet? What is the status of that controversy? It was 
apparently something you negotiated.
    Mr. Alleman. Madam Chair, I would not be able to answer 
that question for you. I will have to check into it and we will 
be back to you.
    Ms. Norton. Seven days, we would like the answer to that 
question.
    Mr. Alleman. Seven days, yes, ma'am.
    Ms. Norton. The number of black-owned firms--the word 
minority is not a word that has any meaning any longer. It is 
going to be a minority Country in a few minutes, people, so we 
want it broken down: black, Hispanic, whatever else we now are 
building up in this Country; then woman, and that broken down 
to see what we have. We are not suggesting through the 
breakdown that you must have any particular breakdown. It is 
just that we like to know what data we are looking at and what 
it means.
    This oversight hearing where you see me asking lots of 
questions really has more to do with educating me, who will 
have to be the chief advocate for Union Station in the larger 
mix on the Transportation Committee if anything is to be done 
competing with very well planned, some in operation, intermodal 
facilities who now want to spread out and do more.
    We are in an extraordinary position. The only thing that we 
don't have or can't have on the ground, we can get you do in 
probably 10 minutes, and that is to National Airport. I 
couldn't be more pleased with what you have done so far. It 
does not begin to meet what Congress in its always grand vision 
expects because we always look at any one facility measured 
against what we see elsewhere.
    And intermodalism is becoming a virtual catch-word in the 
transportation bill that we are preparing. It is very results-
oriented and is going to reward people who are results-
oriented, have proceeded X distant and then come and say, see 
what we have done; can you help us get the rest of the way?
    I mean, the Chairman is on the record and on the bill that 
has been produced so far, so committed to that that that is why 
I am trying to educate myself as to what we have got going, 
because some of the intermodal systems we have seen do not have 
as many actors as we have in Washington. In fact, most do not 
have as many actors as we have in Washington.
    And most of them start with one, try to get--they have 
buses and they usually have some major rail. Then they have to 
figure out how to get the rest. And so, you know, they create 
great big malls. And we are very pleased that we have a very 
good mall, but they are way beyond us in air rights and in 
looking for other ways to out-do one another in intermodalism.
    So when I get to talking to the Committee, they are not 
going to say, oh, isn't that terrific, Eleanor. Somebody on 
this very large Committee is going to pipe up what is being 
done in some other metropolis, and you know, then I sound off 
about the Nation's Capital, the center of the universe, the 
congressional mandate for intermodalism. And then I have to 
fill in the blanks.
    You have helped me to begin to fill in the blanks. I ask 
you to get me a master plan for a 21st century Union Station. 
And then with the region and with other Members of our 
Committee, I am prepared to go the full distance.
    Thank you very much for your testimony.
    The hearing is adjourned.
    Mr. Akridge. Thank you, Madam Chairman.
    [Whereupon, at 4:51 p.m. the Subcommittee was adjourned.]
    [GRAPHIC] [TIFF OMITTED] T1253.004
    
    [GRAPHIC] [TIFF OMITTED] T1253.005
    
    [GRAPHIC] [TIFF OMITTED] T1253.006
    
    [GRAPHIC] [TIFF OMITTED] T1253.007
    
    [GRAPHIC] [TIFF OMITTED] T1253.008
    
    [GRAPHIC] [TIFF OMITTED] T1253.009
    
    [GRAPHIC] [TIFF OMITTED] T1253.010
    
    [GRAPHIC] [TIFF OMITTED] T1253.011
    
    [GRAPHIC] [TIFF OMITTED] T1253.012
    
    [GRAPHIC] [TIFF OMITTED] T1253.013
    
    [GRAPHIC] [TIFF OMITTED] T1253.014
    
    [GRAPHIC] [TIFF OMITTED] T1253.015
    
    [GRAPHIC] [TIFF OMITTED] T1253.016
    
    [GRAPHIC] [TIFF OMITTED] T1253.017
    
    [GRAPHIC] [TIFF OMITTED] T1253.018
    
    [GRAPHIC] [TIFF OMITTED] T1253.019
    
    [GRAPHIC] [TIFF OMITTED] T1253.020
    
    [GRAPHIC] [TIFF OMITTED] T1253.021
    
    [GRAPHIC] [TIFF OMITTED] T1253.022
    
    [GRAPHIC] [TIFF OMITTED] T1253.023
    
    [GRAPHIC] [TIFF OMITTED] T1253.024
    
    [GRAPHIC] [TIFF OMITTED] T1253.025
    
    [GRAPHIC] [TIFF OMITTED] T1253.026
    
    [GRAPHIC] [TIFF OMITTED] T1253.027
    
    [GRAPHIC] [TIFF OMITTED] T1253.028
    
    [GRAPHIC] [TIFF OMITTED] T1253.029
    
    [GRAPHIC] [TIFF OMITTED] T1253.030
    
    [GRAPHIC] [TIFF OMITTED] T1253.031
    
    [GRAPHIC] [TIFF OMITTED] T1253.032
    
    [GRAPHIC] [TIFF OMITTED] T1253.033
    
    [GRAPHIC] [TIFF OMITTED] T1253.034
    
    [GRAPHIC] [TIFF OMITTED] T1253.035
    
    [GRAPHIC] [TIFF OMITTED] T1253.036
    
    [GRAPHIC] [TIFF OMITTED] T1253.037
    
    [GRAPHIC] [TIFF OMITTED] T1253.038
    
    [GRAPHIC] [TIFF OMITTED] T1253.039
    
    [GRAPHIC] [TIFF OMITTED] T1253.040
    
    [GRAPHIC] [TIFF OMITTED] T1253.041
    
    [GRAPHIC] [TIFF OMITTED] T1253.042
    
    [GRAPHIC] [TIFF OMITTED] T1253.043
    
    [GRAPHIC] [TIFF OMITTED] T1253.044
    
    [GRAPHIC] [TIFF OMITTED] T1253.045
    
    [GRAPHIC] [TIFF OMITTED] T1253.046
    
    [GRAPHIC] [TIFF OMITTED] T1253.047
    
    [GRAPHIC] [TIFF OMITTED] T1253.048
    
    [GRAPHIC] [TIFF OMITTED] T1253.049
    
    [GRAPHIC] [TIFF OMITTED] T1253.050
    
    [GRAPHIC] [TIFF OMITTED] T1253.051
    
    [GRAPHIC] [TIFF OMITTED] T1253.052
    
    [GRAPHIC] [TIFF OMITTED] T1253.053
    
    [GRAPHIC] [TIFF OMITTED] T1253.054
    
    [GRAPHIC] [TIFF OMITTED] T1253.055
    
    [GRAPHIC] [TIFF OMITTED] T1253.056
    
    [GRAPHIC] [TIFF OMITTED] T1253.057
    
    [GRAPHIC] [TIFF OMITTED] T1253.058
    
    [GRAPHIC] [TIFF OMITTED] T1253.059
    
    [GRAPHIC] [TIFF OMITTED] T1253.060
    
    [GRAPHIC] [TIFF OMITTED] T1253.061
    
    [GRAPHIC] [TIFF OMITTED] T1253.062
    
    [GRAPHIC] [TIFF OMITTED] T1253.063
    
    [GRAPHIC] [TIFF OMITTED] T1253.064
    
    [GRAPHIC] [TIFF OMITTED] T1253.065
    
    [GRAPHIC] [TIFF OMITTED] T1253.066
    
    [GRAPHIC] [TIFF OMITTED] T1253.067
    
    [GRAPHIC] [TIFF OMITTED] T1253.068
    
    [GRAPHIC] [TIFF OMITTED] T1253.069
    
    [GRAPHIC] [TIFF OMITTED] T1253.070
    
    [GRAPHIC] [TIFF OMITTED] T1253.071
    
    [GRAPHIC] [TIFF OMITTED] T1253.072
    
    [GRAPHIC] [TIFF OMITTED] T1253.073
    
    [GRAPHIC] [TIFF OMITTED] T1253.074
    
    [GRAPHIC] [TIFF OMITTED] T1253.075
    
    [GRAPHIC] [TIFF OMITTED] T1253.076
    
    [GRAPHIC] [TIFF OMITTED] T1253.077
    
    [GRAPHIC] [TIFF OMITTED] T1253.078
    
    [GRAPHIC] [TIFF OMITTED] T1253.079
    
    [GRAPHIC] [TIFF OMITTED] T1253.080
    
    [GRAPHIC] [TIFF OMITTED] T1253.081
    
    [GRAPHIC] [TIFF OMITTED] T1253.082
    
                                    

</pre></body></html>
